<html>
<title> - S. 633, AVIATION DELAY PREVENTION ACT</title>
<body><pre>[Senate Hearing 107-1080]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1080



                 S. 633, AVIATION DELAY PREVENTION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON AVIATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
88-035                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri

                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel

                              ----------                              

                        SUBCOMMITTEE ON AVIATION

                KAY BAILEY HUTCHISON, Texas, Chairwoman

TED STEVENS, Alaska                  JOHN D. ROCKEFELLER IV, West 
CONRAD BURNS, Montana                    Virginia
TRENT LOTT, Mississippi              ERNEST F. HOLLINGS, South Carolina
OLYMPIA J. SNOWE, Maine              DANIEL K. INOUYE, Hawaii
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri


                            C O N T E N T S

                              ----------                              

                                                                   Page

Hearing held on March 29, 2001...................................     1
Statement of Senator Burns.......................................    47
    Prepared statement...........................................    48
Statement of Senator Cleland.....................................    49
Statement of Senator Ensign......................................    51
Statement of Senator Hutchison...................................     1
Statement of Senator Rockefeller.................................     2
Statement of Senator Wyden.......................................     4

                               Witnesses

Barclay, Charles, President, American Association of Airport 
  Executives.....................................................    23
    Prepared statement...........................................    25
Fegan, Jeffrey P., Chief Executive Officer, Dallas/Fort Worth 
  International 
  Airport........................................................    18
    Prepared statement...........................................    20
McDermott, Susan, Deputy Assistant Secretary for Aviation and 
  International Affairs, Department of Transportation............     5
    Prepared statement...........................................     7
McElroy, Deborah C., President, Regional Airline Association.....    35
    Prepared statement...........................................    36
Merlis, Edward A., Senior Vice President, Legislative and 
  International 
  Affairs, Air Transport Association of America..................     8
    Prepared statement...........................................    10
    ``Mayoral Candidates Join Opposition to Expanding LAX,'' Los 
      Angeles Times, March 27, 2001..............................    17
Swanda, Ronald, Vice President-Operations, General Aviation 
  Manufacturers Association......................................    39
    Prepared statement...........................................    40

                                Appendix

Carnahan, Hon. Jean, U.S. Senator from Missouri, prepared 
  statement......................................................    59
Snowe, Hon. Olympia J., U.S. Senator from Maine, prepared 
  statement......................................................    59

 
                 S. 633, AVIATION DELAY PREVENTION ACT

                              ----------                              


                        THURSDAY, MARCH 29, 2001

                               U.S. Senate,
                          Subcommittee on Aviation,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:15 a.m. in 
room 
SR-253, Russell Senate Office Building, Hon. Kay Bailey 
Hutchison, Chairwoman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Good morning. This is the first hearing 
of the Aviation Subcommittee of this Congress, and I am very 
pleased to welcome all of you here. Today, our Subcommittee is 
considering legislation that will attempt to bring real relief 
to hundreds of millions of passengers who have been suffering 
through delays and cancellations in our passenger aviation 
system.
    The Aviation Delay Prevention Act will reduce the red tape 
that communities must cut through to build runways, terminals, 
and airports. I would like to thank my colleague, the Ranking 
Minority Member of the Subcommittee, Senator Rockefeller, for 
working with me in co-sponsoring this legislation.
    As many of you know, we have another bill that attempts to 
address the issue of requiring that airlines give notice when 
flights are chronically late. What we are trying to deal with 
in the bill before us today is fixing the problems with 
passenger treatment, so that we do not have to give notice of 
cancellations and delays.
    Many of you in this room are frequent flyers. If you are, 
you have your own personal horror story. I assure you, I can 
match you one for one. In fact, 27 percent of the scheduled 
flights last year in this country were delayed or canceled.
    The length of the average delay has also increased, despite 
the fudge time that is built into most flights now by airlines 
to compensate for the delays they know will occur. Most delays 
are occurring on the ground. According to the FAA, 83 percent 
of the total delay time at 55 major U.S. airports during the 
first 11 months of 2000 happened on the ground: 49 percent 
during gate departure; 26 percent during the taxi out; and 8 
percent during the taxi in.
    Not coincidentally, the number of annual air travelers is 
also rising. 674 million people flew through U.S. airports in 
the year 2000. The FAA now says that number will increase to 
over a billion by the end of this decade, so of course we must 
deal with this issue. There has not been a commensurate 
increase in the number of aviation facilities. Only one major 
airport has been built in this country in the last 10 years--
Denver. Only a handful of new runways and terminals have been 
completed to deal with the demand, each taking from 10 to 30 
years from inception to build. The process for making capital 
improvements to existing airports is painfully slow, and easily 
thwarted by well-organized groups who delay a new runway until 
it becomes impossibly expensive or too much trouble to build. 
Unless we significantly expand the capacity of our airport 
systems, we will not be able to meet the growing demand for air 
travel.
    The cost to American productivity from millions of hours 
lost while sitting on an airport tarmac is incalculable. Fixing 
the problem will call for more infrastructure and better air 
traffic control facilities. We must face the challenge now so 
these new runways and terminals can be ready before there is a 
further crisis.
    Until now, most of the focus in Congress has been on 
passenger service. This bill instructs the Secretary to develop 
a procedure to ensure that the approval process for runways, 
terminals, and airports is streamlined. Federal, State, 
regional and local reviews will take place simultaneously, not 
one after the other. In no way would environmental laws be 
ignored or broken. It simply provides the community with a 
reasonable time-line to get an answer. If the answer is no, the 
region is free to explore other transportation options.
    The Aviation Delay Prevention Act also addresses the 
unfortunate practice of airlines overscheduling at peak hours. 
At many airports, these schedules are so densely packed that 
even in perfect weather conditions throughout the country there 
is no way the airlines could possibly meet them. The result is 
chronically late flights. The bill directs the Secretary to 
study the busiest airports and to make recommendations to 
reduce congestion and overscheduling.
    Any such program would have to be imposed with a 
sensitivity toward smaller communities and the maintenance of 
aviation links to the rest of the country. This legislation 
also grants the airlines a limited antitrust exemption so that 
they can consult with one another, subject to the Secretary's 
approval, to reschedule flights from the most congested hours 
to off-peak times.
    We have all experienced flights that push away from the 
gate only to languish for hours on the tarmac waiting to take 
off. The current system logs these flights as on-time 
departures. The legislation before us today would change the 
definition of on-time departure to mean that the flight is 
airborne within 20 minutes of its scheduled departure time. Our 
national economic health depends on the reliability of our 
aviation system. If we fail to act now, that reliability will 
be placed in serious jeopardy.
    I would now like to call on the Ranking Member of the 
Aviation Subcommittee, Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Madam Chairwoman. You have 
expressed not only the purposes of the bill very well, but also 
reflected on what pleased me a great deal, and that was our 
ability to work together to craft a bill that could be useful, 
and I like that. We talk about bipartisanship, and sometimes we 
practice it.
    Senator Hutchison. Well, we certainly all have had the same 
experiences within our smaller communities of not being served 
well, and the frustration of delays. So I think we can 
certainly put aside any differences and go forward together.
    Senator Rockefeller. I agree. This bill does a lot and, as 
the Chairperson indicated, one of the things that has to be 
addressed is congestion. It is amazing to me to think that in 
New York you have basically four airports, Newark, LaGuardia, 
JFK, and Teeterboro, and Teeterboro has a heavier flight load 
than LaGuardia. There is this enormous congestion problem, and 
the question is, all across the country, how do we face up to 
it, what do we do about it in a way which can be equitable, 
from the point of view of those of us who come from rural 
States.
    The bill reflects all of these things and more. We want to 
make sure that the air traffic control system is done well. We 
want to make sure that the chief operating officer is paid in a 
way that we can get a top professional, something which Jane 
Garvey very much wants. As the Chairperson said there has been 
very little activity.
    There are a lot of places waiting, Detroit, Minneapolis-St. 
Paul, Houston, Orlando, Miami, Charlotte are all waiting to go 
forward. They are also waiting for the merger to be completed 
involving United. Chip Barclay, who sits yonder, says that what 
we really need is 50 miles of new runways in this country, and 
if we had 50 miles of new runways we could solve most of our 
problems. I think he is probably right.
    The problem is, how do you get them built? One of the 
things that this bill addresses is the cooperation at different 
levels to speed up the process wherein runways are built once 
they have been authorized or approved. We want, in a fair way, 
to reduce that amount of time and not hurt anybody's rights. I 
think this bill will do that effectively.
    This will be difficult to do, because as Senator Hutchison 
indicated, a lot of these delays are due to weather, and that 
we cannot control. What we can control we need to do something 
about. Even when we have bad weather we should be able to 
handle our system better than we do. That is what this bill is 
intended to do. I am very proud to co-sponsor this bill with 
you, Senator Hutchison, and I look forward to working this 
through the Subcommittee, and I thank you.
    Senator Hutchison. Thank you, Senator Rockefeller, for 
working with me on the bill. I look forward to working with 
others on the Committee to have a markup soon, because I do 
hope that we can address the issue of notification. 
Notification was in the previous bill that we marked up, and 
the bill that I think will do the most to address the real 
cause of the delays. I hope we can do them together on the 
floor, so that we have a short-term and a long-term 
improvement.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Madam Chairwoman, and I look 
forward very much to working with you and Senator Rockefeller.
    We worked very cooperatively on the passenger rights issue, 
and I think we can do that in this area as well.
    I think you and Senator Rockefeller are absolutely right on 
this matter of coordinating various reviews that take place at 
the Federal and State and local levels with respect to 
constructing runways. What we have seen, and you see it with 
roads as well as airlines, is that you try to construct a 
project, and people huff and puff for years to get it done. 
Then at the last minute, somebody comes in and files a National 
Environmental Policy Act objection, and that drags it out for 
years and years. So I think what you and Senator Rockefeller 
are doing by way of saying, let us do this concurrently so that 
every step along the way you seek to tie the development effort 
to the question of the environmental reviews is just common 
sense. I am very anxious to work with you on it, and I think it 
is the next logical and practical step to be taking at this 
time.
    The one area that I am concerned about in the bill is the 
provision on page 4 with respect to the limited exemption from 
the antitrust laws. It seems to me what you all are looking at, 
I am certain, has a constructive thought behind it. I am not 
against that in any way, but I think the idea that the airlines 
could go behind closed doors and start talking about varied and 
sundry things about which the public knows nothing would really 
encourage a great deal of cynicism.
    We might hear from the AG and GAO about this. Perhaps with 
respect to that section we could even require that it be done 
in public, or in the open, so that there would be some effort 
to make sure that people didn't think they were behind closed 
doors. I think that is important, because on the overscheduling 
issue, the airlines do not have a gun at their heads, and there 
is no legal requirement that they promise more than they can 
deliver. They do it because they think it is to their 
advantage.
    We have tried on a bipartisan basis to deal with that on 
the passenger rights issue, and we worked cooperatively on it. 
I think we can work together in this area as well. I look 
forward to working with you and Senator Rockefeller in the 
fashion that we did on passenger rights, a good bill, and 
express only my concern about the exemption from antitrust 
laws.
    Senator Hutchison. Well, Senator Wyden, we would be happy 
to work with you on that. The Department of Transportation is 
required to have a representative in the meetings, so it is not 
as if they are behind closed doors with no public 
representative. What we are trying to do is create leeway for 
them to give and take on these peak hour take-offs. All of us 
have looked on those monitors, seen 14 flights listed as taking 
off at 8:15, and known it could not happen.
    There could be a recommendation by the Secretary that would 
either charge fines for using that time slot, or charge more 
for take-off slots, or give rewards to people who would move 
from the peak hour to an off-peak hour. We are looking for 
alternatives, and certainly look forward to working with you to 
do the right thing--but to give as much leeway as we can to the 
airlines for these overscheduling issues.
    Senator Fitzgerald.
    Senator Fitzgerald. I have no opening statement, Madam 
Chairwoman.
    Senator Hutchison. Senator Stevens.
    Senator Stevens. Thank you very much. I do not have an 
opening statement. I will have an amendment to this bill later 
on, but we will get to that later.
    Senator Hutchison. Thank you.
    With that, I would like to introduce our first panel. I 
will start with Susan McDermott, who is the Acting Assistant 
Secretary for Aviation and International Affairs of the 
Department of Transportation.

        STATEMENT OF SUSAN McDERMOTT, DEPUTY ASSISTANT 
SECRETARY FOR AVIATION AND INTERNATIONAL AFFAIRS, DEPARTMENT OF 
                         TRANSPORTATION

    Ms. McDermott. Good morning, Chairwoman Hutchison, Senator 
Rockefeller, and Members of the Subcommittee. I am Susan 
McDermott, the permanent Deputy, but current Acting Assistant 
Secretary of the Office of Aviation and International Affairs 
for the Department of Transportation.
    Senator Rockefeller. Could you pull the mike just a little 
bit closer?
    Ms. McDermott. Certainly.
    Senator Rockefeller. Thank you.
    Ms. McDermott. The Department appreciates the opportunity 
to appear today to discuss ways to better manage congestion and 
delays at our Nation's largest airports. Madam Chairwoman, 
Secretary Mineta asked that I convey his personal thanks to you 
and to the Members of the Subcommittee for your strong 
commitment to looking at steps that might be taken to reduce 
aviation congestion. Although the Administration has not yet 
taken a formal position on the specific legislation that is the 
subject of today's hearing, we look forward to working with the 
Subcommittee and others on this vital issue.
    The congestion problem is not really a single problem, but 
the result of multiple factors that have placed significant 
stress on our aviation system. Finding the solution will not, 
therefore, come all at once or from a single measure. We need 
to build more aviation capacity, and that will not happen 
overnight. At the same time, fixing our capacity problem is not 
the work of the Government alone. The airline industry must 
step up to the plate, and we must similarly work closely with 
airports who are responsible for many elements of the capacity 
equation.
    Congestion and delays have a very real and significant 
impact on the traveling public, and the public is rightfully 
impatient for improvements. Because of the multiple and varied 
causes for delays, we know they can never be entirely 
eliminated. Nevertheless, the level of delays that was 
experienced last summer is unacceptable.
    As you noted in your opening statement, Madam Chairwoman, 
the FAA has recently announced at its forecast conference that 
the number of passengers on U.S. airlines is expected to hit 1 
billion by the year 2010. Now, we face the stiff challenge, and 
the operative word is now, of providing the necessary capacity 
to match that demand and to do it safely. At the same time, we 
must work to ensure that our existing infrastructure is used as 
efficiently as possible.
    The Administration has made clear in its budget request for 
2002 that action is needed now. That budget will fully fund the 
FAA's air navigation needs, personnel costs, and increased 
funds available for airport grants. Indeed, Congress itself set 
in motion the funding mechanisms for this initiative in the 
Wendell Ford Aviation Investment Reform Act of the 21st 
Century.
    Looking, however, more to short-term improvement, I note 
that in light of the flight delays our Nation experienced in 
1999, the FAA recognized that it needed to establish a 
collaborative planning process between the agency and the users 
of the Nation's air space system. It is called the Spring-
Summer Plan.
    Last year was difficult, to be sure, but the Secretary 
believes it would have been twice as bad without this 
collaborative process in place. Last fall, the FAA and the 
airlines reviewed their performance of the previous spring-
summer, what worked for them, what didn't work, and they have 
made a number of changes in terms of procedures and increased 
training that should substantially improve the performance of 
the system.
    Still, of course, more needs to be done, and the 
Administration is developing a detailed position on the best 
approach to relieving congestion, and we are looking at all 
options. For example, a market-based approach such as 
congestion pricing represents one way to encourage air carriers 
to use limited capacity more efficiently.
    At the same time, however, it raises important equity 
issues for passengers in communities that are served on less-
traveled routes. For this reason, the feasibility and the 
effectiveness of using any market-based approach must be 
studied carefully, and with full public participation.
    In addition, as Secretary Mineta recently stated, the 
Department is looking into options for expediting the 
environmental review process for airport capacity enhancement 
projects without compromising environmental protection and 
concern for public sensitivity about noise, air, and water 
quality, and other natural resources.
    The Department is completing an environmental streamlining 
report to Congress requested in AIR 21 last year, and Secretary 
Mineta will use this as the basis for discussions.
    One key to navigating the environmental review process is 
to get the appropriate Federal and State environmental 
safeguards identified early, and built in as the project 
progresses. Slow decisionmaking does not translate into better 
environmental results. Local cooperation is a key component to 
speeding the environmental process, and local officials must be 
our active partners in this effort if we are to make 
significant progress.
    In closing, the Department wants to thank you for your 
initiative in acting quickly to address these problems, and to 
assure you that the Department places a high priority on 
presenting its proposals for action.
    This completes my oral statement, Madam Chairwoman, and I 
would be pleased to respond to questions from you or other 
Members of the Subcommittee.
    Thank you.
    [The prepared statement of Ms. McDermott follows:]

 Prepared Statement of Susan McDermott, Deputy Assistant Secretary for 
    Aviation and International Affairs, Department of Transportation

    Senator Hutchison, Senator Rockefeller and Members of the 
Subcommittee: I am Susan McDermott, the Deputy Assistant Secretary for 
Aviation and International Affairs at the Department of Transportation 
(DOT). The Department appreciates the opportunity to appear today to 
discuss ways to better manage congestion and delays at our Nation's 
largest airports.
    Senator Hutchison, Secretary Mineta asked that I convey his 
personal thanks to you and to the Subcommittee for your strong 
commitment to looking at steps that might be taken to reduce aviation 
congestion. Although the Administration has not yet taken a formal 
position on the specific legislation that is the subject of today's 
hearing, we look forward to working with the Subcommittee and others on 
these vital issues.
    The congestion problem is really not a single problem, but is the 
result of multiple factors that have placed significant stress on our 
aviation system. Finding the solution will not, therefore, come all at 
once or from a single measure. We need to build more aviation 
capacity--and that will not happen overnight. At the same time, fixing 
our capacity problem is not the work of the government alone. The 
airline industry must step up to the plate, and we must similarly work 
closely with airports, who are responsible for many elements of the 
capacity equation.
    Congestion and delays have a very real and significant impact upon 
the traveling public. And the public is rightfully impatient for 
improvements. There are many conditions that can cause delays: bad 
weather, inoperable runways, airport capacity limitations, aircraft 
equipment problems, airline maintenance and flight crew problems, and 
air traffic equipment outages. Because of the multiple and varied 
causes for delays, we know they can never be entirely eliminated. 
Nevertheless, the level of delays that was experienced last summer is 
unacceptable. It is the job of the Department of Transportation, 
airlines and airports to work together to reduce delays to the greatest 
extent possible, without compromising safety.
    In the year 2000, some 600 million passengers flew on U.S. 
airlines, a 50 percent increase in just 9 years. And, as announced at 
the FAA's recent aviation forecast conference, the number of passengers 
on U.S. airlines is expected to hit one billion by the year 2010. Now 
we face the stiff challenge of providing the necessary capacity to 
match that demand. And do it safely.
    The Administration has made clear in its Budget Request for 2002 
that action is needed now. Our Budget will fully fund the FAA's air 
navigation needs, personnel costs, and increased funds available for 
airport grants. Congress set in place the funding mechanisms for this 
initiative in the Wendell H. Ford Aviation Investment Reform Act for 
the 21st Century.
    In light of the flight delays our Nation experienced in 1999, the 
FAA recognized that it needed to establish a collaborative planning 
process between the agency and the users of the Nation's airspace 
system. Consequently, the Spring/Summer 2000 plan was established for 
severe weather operations.
    The heart of this plan is a process called ``collaborative 
decisionmaking.'' It represents a fundamental change in the way the FAA 
has been doing business--centralizing much of their air traffic 
management planning, their coordination and their decisionmaking at the 
FAA system command center in Herndon, Virginia.
    The key to the whole process is the real-time collaboration with 
the airlines to manage their operations in severe weather conditions. 
Last year was difficult, to be sure, but the Secretary believes it 
would have been twice as bad without this collaborative process in 
place.
    Last fall, the FAA and the airlines reviewed their performance of 
the previous spring and summer--what worked and what didn't--and they 
have made a number of changes in terms of procedures and increased 
training that should substantially improve the performance of the 
system. To date, more than 3,000 people--FAA controllers, FAA 
supervisors, airline dispatchers and operations personnel, as well as 
pilots, have completed training on the Spring/Summer 2001 plan.
    Still, more needs to be done. As the Administration is developing a 
detailed position on the best approach to relieving congestion, we are 
looking at a range of approaches.
    For example, a market-based approach, such as congestion pricing, 
represents one way to encourage air carriers to use limited capacity 
more efficiently. At the same time, however, it raises equity issues 
for passengers and communities that are served on less traveled routes. 
For this reason, the feasibility and effectiveness of using any market-
based approach must be studied carefully with full public 
participation.
    As Secretary Mineta recently stated, the Department is looking into 
options for expediting the environmental review process, without 
compromising environmental protection and concern for public 
sensitivity about noise, air and water quality, and other natural 
resources. The Department is completing an environmental streamlining 
report to Congress requested in AIR 21, and Secretary Mineta will use 
this as a basis for discussions about how to streamline the process.
    One key to navigating the environmental review process is to get 
the appropriate Federal and State environmental safeguards identified 
early and built in as the project progresses. Slow decisionmaking does 
not translate into better environmental results. However, local 
cooperation is a key component of speeding the environmental process 
and local officials must be our active partners in this effort if we 
are to make significant progress. That means, for example, that we have 
to continue to reduce the problem of aircraft noise and deal with local 
problems of surface traffic congestion and air pollution near airports.
    In closing, I want to thank you for your initiative in acting 
quickly to address these problems and to assure you that the Department 
of Transportation places a high priority on presenting its proposals 
for action.
    This completes my prepared statement, Madam Chairwoman. I would be 
pleased to respond to any questions from you and Members of the 
Subcommittee.

    Senator Hutchison. Thank you, Ms. McDermott.
    Mr. Edward Merlis, the Senior Vice President for Government 
and International Affairs of the Air Transport Association.

          STATEMENT OF EDWARD A. MERLIS, SENIOR VICE 
       PRESIDENT, LEGISLATIVE AND INTERNATIONAL AFFAIRS, 
              AIR TRANSPORT ASSOCIATION OF AMERICA

    Mr. Merlis. Thank you, Madam Chairwoman and Members of the 
Subcommittee. I appreciate the opportunity to appear before you 
to discuss what needs to be done to get the delay problem under 
control. It is just as frustrating to the airlines as it is to 
you, our employees, and our passengers, that the safe, fast, 
frequent and efficient air transportation system that we want 
is currently plagued by delays.
    We believe it is necessary for this Subcommittee and others 
to take bold steps to resolve the airport and air space 
capacity issues that face the country. We feel that the 
legislation you and Senator Rockefeller have introduced is an 
important step in guiding us down the correct path. Simply 
stated, our aviation system's three components of capacity, 
airlines, air traffic control, and airports, are out of sync, 
and consequently are not meeting the needs of the traveling and 
shipping public.
    It is not as though we did not know this was going to 
happen. 10 years ago, the FAA predicted with remarkable 
accuracy the now current level of demand for air 
transportation, but over the 10 years we have not done enough 
to keep the three pieces of capacity in equilibrium.
    Frustrating as things are today, the FAA's recent forecast 
anticipates more than 1 billion passengers by the turn of the 
decade, so the question is, what are we going to do about it? 
We certainly cannot stand by and let our aviation system and, 
indeed, our economy wither. We must take decisive and bold 
steps to address the shortfalls in our national aviation 
system.
    Our national leaders, this institution, the Administration, 
and the aviation industry, must lift this issue to a national 
priority similar to what the Nation did in the 1950s with our 
national highway system, and ultimately make the tough 
decisions that need to be made. There is no other acceptable 
choice. The public is demanding and deserves a more efficient 
air transportation system.
    My written statement comments on specific provisions of 
your bill, and we look forward to working with you on this. 
Rather than going over those details, I would like to identify 
what we believe in general must be done. First, as I mentioned, 
we need to have the will to proclaim expansion of our aviation 
system as a national priority. It is not any accident that the 
United States, which holds less than 5 percent of the world's 
population and generates roughly 25 percent of the world's 
economic activity, is home to almost 50 percent of the world's 
aviation activity. If we want to keep it this way, we must 
invest time, energy, money, and commitment to expanding the 
system.
    Now, some have suggested that we need to manage the 
public's demand for aviation services. We say no. Demand 
management is an admission of failure, an abdication of 
responsibility, and a sure-fire way to shrink our economic 
prosperity.
    The question really arises, how much demand management do 
we need nationwide? There may be some localities where this 
does arise, but if Secretary Mineta's announcement on Tuesday 
of changes in handling aircraft during adverse weather, which 
we know was the source of 70 percent of delays, comes to pass, 
I think that we will see tremendous delay mitigation this 
summer. By allowing aircraft to launch, instead of imposing 
ground stops, pilots will be able to thread through or divert 
their way around adverse weather in the en route environment, 
which they have not been able to do for the last several years, 
due to the way that the system has been handled.
    In any case, once we have established this national 
priority, what we need to do is the following: expedite the 
review and redesign of our air space. We know it can handle 
more traffic safely. Let us put the resources into the effort 
to accomplish the goal, and that means hiring more controllers, 
too.
    Second, we need to prioritize and expedite the deployment 
of air traffic control technologies that have the potential to 
bring about safe, increased utilization of the aviation system.
    Third, we need to identify the airport capacity that will 
provide significant benefits to the traveling and shipping 
public, streamline the planning, environmental and construction 
processes, and get those places fixed.
    Madam Chairwoman, this is not a time for timid responses, 
tinkering around the edges, or wringing our hands. It is time 
to make very tough decisions, and these decisions are needed 
and hopefully they will be the right decisions. Your 
legislation and Senator Rockefeller's is an important starting 
place, an excellent starting place, and we look forward to 
working with you to fulfilling that goal. The American people 
want it, the U.S. economy needs it.
    Thank you very much.
    [The prepared statement of Mr. Merlis follows:]

     Prepared Statment of Edward A. Merlis, Senior Vice President, 
  Legislative and International Affairs, Air Transport Association of 
                                America

    Good morning, Madam Chairwoman and Members of the Subcommittee. I 
am Edward Merlis, Senior Vice President of the Air Transport 
Association of America (ATA).\1\
---------------------------------------------------------------------------
    \1\ ATA member airlines include: Alaska Airlines, Aloha Airlines, 
America West Airlines, American Airlines, American Trans Air, 
Continental Airlines, Delta Air Lines, DHL Airways, Emery Worldwide, 
Evergreen International Airlines, Federal Express, Hawaiian Airlines, 
Midwest Express Airlines, Northwest Airlines, Polar Air Cargo, 
Southwest Airlines, Trans World Airlines, United Airlines, United 
Parcel Service, and US Airways. Associate members include: Aerovias De 
Mexico, Air Canada, KLM Royal Dutch Airlines, and Mexicana De Aviacion.
---------------------------------------------------------------------------
    Simply stated, our aviation system's three components of capacity--
airlines, air traffic control, and airports--are out of synch and 
consequently are not meeting the needs of the traveling and shipping 
public. Each is under the control of very different forces. Yet, at the 
end of the day, all of the components must work together harmoniously, 
if we are to have a smoothly functioning aviation system.
    By any measure--available seat miles, enplaned passengers, aircraft 
departures, number of aircraft etc.--airlines are making available more 
to the traveling and shipping public, and concurrently the traveling 
and shipping public is using our services more. In the past 10 years 
\2\ we have made 25 percent more seat miles available, on 23 percent 
more flights, yet the traveling public has purchased even more--33 
percent more. As a result, planes are more crowded--71 percent of our 
seats are filled--than at any time since World War II.
---------------------------------------------------------------------------
    \2\ For purposes of this discussion, the 10 years covered are 
1989--1999. Complete DOT Form 41 data for calendar year 2000 is not yet 
available.
---------------------------------------------------------------------------
    This should come as no surprise to anyone in the aviation community 
or indeed, to the public at large. We have known what the demands on 
the system would be for quite some time. Ten years ago (February 1991) 
the FAA Aviation Forecast for Domestic Traffic projected some 678.4 
million passengers for fiscal year 2000. When the final data for 2000 
is compiled, we will see that the FAA's aviation forecast was 
remarkably accurate.
    So with almost 10 years of lead time, how could we find ourselves 
in the current situation? There are many pieces of the problem, but 
let's examine each component's contribution.
    Airlines: The airlines' contribution to the delay problem is more 
frequent service to communities large and small, and has been somewhat 
exacerbated as a consequence of acquiring regional jets. These 
aircraft, for which the number purchased or on order exceeds 1200 at 
this time, can fly longer distances, with greater payloads than the 
turbo props that they are replacing--and they respond to the long 
expressed desires of customers in more modest sized communities to 
receive pure jet service. However, since they fly in airspace used by 
larger jets, they add to congestion.
    Air Traffic Control: The second component of the capacity equation 
is the air traffic control system. This Subcommittee knows full well 
the problems in developing, acquiring, deploying and staffing an air 
traffic control system capable of meeting the public's demand for safe 
air transportation. Suffice it to say means need to be found to 
accelerate dramatically the innovations which are in the pipeline. 
Otherwise, previous summer's problems will not be ameliorated to the 
satisfaction of anyone--the airlines, our customers, or the Congress. 
Appended to this statement is an industry prepared top ten list of most 
important ATC-related programs that can be implemented over a 5-year 
period and which would result in real national aviation system capacity 
improvements.
    We would also note, and applaud, the important near term 
contribution to delay prevention Secretary Mineta made on Tuesday. He 
called upon air traffic controllers, who now have greater access to 
weather data, to reduce ground stops, allow flights to take off, and 
permit pilots to navigate around storms. Clearly this is a safe and 
efficient way of dealing with our near term problem, and the air 
traffic controllers union has agreed to this procedure. I think it is 
safe to say that if properly and promptly implemented, this step holds 
more promise for delay reduction this summer than any other initiative 
that could be undertaken.
    The third component of the problem is airport capacity. You have 
heard the data--12 major airports account for 51 percent of all delays. 
Since 1974, when Dallas/Fort Worth International Airport opened, only 
four new air carrier airports have opened. Between 1995 and this fall, 
only eight new runways have opened, at the top 100 airports, and there 
are 14 new runways planned to be operational through December 2005.
    What can be done about this? We think this is an area ripe for 
decisive congressional intervention, and we think that your bill, 
Senator Hutchison, is an important step in the right direction.
    Some have suggested that limits be put on our national economy's 
demand for air transportation. This is wrong. Throttling back the 
economy is not a solution. Increasing capacity is the only appropriate 
response to the public's needs--and in the long run, the only response 
that the public will accept. Moreover, the more efforts are directed at 
demand management, the more likely we are to lose focus on the real 
problems and the more we will fail to provide what the American people 
need--safe, fast, frequent, efficient air transportation at fair 
prices.
    We have reviewed the provisions of your bill--at least as they 
appeared in the Staff Working Draft dated March 26, 2001--and provide 
the following comments on how we think it would help to address the 
problem.
Section 3. FAA Study and Report
    The analyses required by this section would help to develop a 
better understanding of the current nature of our capacity shortage. As 
we read the section, it requires the FAA to submit annual reports for 5 
years on the degree to which airlines ``overschedule'' departures at 
the 30 largest airports in the United States. We prefer to look at this 
not as an ``overscheduling'' issue, but as a failure to provide 
adequate infrastructure issue; indeed, a failure to even commit to 
provide adequate infrastructure. We believe that the results of this 
process will provide a collection of compelling data that can be used 
to help build the kind of aviation infrastructure the national system 
requires.
    But, we must restrain our hopes. Attached to my testimony is an 
article from Tuesday's Los Angeles Times. In it, all six candidates for 
mayor announce their opposition to the expansion of Los Angeles 
International Airport despite the public demand for more and better 
service at LAX. While one might think Californians particularly would 
have learned something from the failure to build an adequate electric 
power infrastructure, it looks as though at least with regard to our 
national aviation system, the lesson has not been learned.
    We also suggest that the ``overscheduling'' analysis be broadened. 
Individually airlines do not overschedule departures at an airport, as 
the bill seems to assume. But collectively the combination of 
departures and arrivals by all airlines and other airport users may 
exceed the airport's capacity under certain circumstances or runway 
configurations. Thus, focusing on departures only may not cover the 
full range of issues that cause congestion and delays.
    Similarly, focusing on ``scheduled'' performance may not fully 
address the issue. We think that a better measure for the analysis 
would be actual performance of both arrivals and departures. In that 
manner we would be in a position to better understand what is actually 
happening and use this information as a springboard for increased 
capacity.
    Additionally, we think that the report to Congress should 
incorporate a requirement that the Secretary spell out the capacity 
enhancements that need to be implemented in both the air traffic 
control and airport systems in order to reduce this purported 
``overscheduling'' at specific airport locations. If the 30 largest 
airports and the Department are going to go to the effort of compiling 
and analyzing the data, let's have Congress be informed of the 
solutions to the problems exposed. Absent this, we cannot hope to have 
accountability for providing needed infrastructure in the future.
Congestion/Peak Hour Pricing
    In the version of the bill we reviewed, we noted that there was a 
study of the utility of congestion pricing. Congestion or peak hour 
pricing has been suggested by some as a means to ration airport 
capacity. Our concern with congestion or peak hour pricing is that 
these regimes focus on demand management rather than capacity 
management. In our view, and as Secretary Mineta has said, the 
necessity to implement such a scheme is an admission of failure to meet 
the public's transportation needs--and the demands of our economy.
    If such a study were to be undertaken, we suggest that critical 
questions be asked about the goal and operation of such a program. Is 
it designed to limit demand or to produce increased airport capacity? 
This is a basic issue that must be forthrightly confronted. It is 
important to keep in mind that the revenue necessary to expand our 
capacity constrained airports is readily available today. The action by 
the Congress in enacting AIR 21, together with the commitment of the 
air carriers and the public finance community to underwrite expansion 
at the capacity constrained airports, obviates the need for congestion 
pricing as a revenue generating mechanism.
    We are also concerned that fees raised during peak hours to limit 
demand will not be devoted to commensurate investment in capacity. When 
that happens, congestion pricing is inconsistent with the goal of 
building and maintaining a safe, healthy, vibrant, and competitive 
national air transportation system.
    Among our other concerns with congestion pricing, are the following 
questions which should be carefully analyzed:
    <bullet> How will congestion pricing be established and who will be 
responsible for setting it?
    <bullet> Will congestion pricing serve as an excuse not to expand 
capacity?
    <bullet> How will traffic from small and midsize communities be 
able to bear the incremental costs arising from peak hour pricing? To 
what extent would such a system disenfranchise residents of these 
communities from the national network? Alternatively, pushing service 
to these communities outside of the peak hours may necessitate 
residents of those communities adding an additional overnight to a 
trip, at significant costs that need to be computed.
    <bullet> To what extent will public policy exemptions--small 
communities, new entrants, business jets, or government aircraft to 
name just a few--result in just as much congestion but at a higher 
prices for those not exempted?
    <bullet> Should a congestion-pricing scheme be revenue neutral, so 
as not to build up tempting surpluses that local officials will 
inevitably seek to siphon off the airport?
    <bullet> Even if a congestion pricing system is revenue neutral, 
should the terms by which grand-fathered airports operate (49 U.S.C 
47107(b)(2)) be changed to preclude them from using these funds for 
non-aviation purposes?
    <bullet> How will congestion pricing affect feeds from small planes 
and communities that may not be able to afford the peak hour surcharge? 
Without that feeder traffic and with fewer passengers on the connecting 
long haul over which the surcharges are spread, to what extent will the 
scheme have the potential to further increase prices on tickets?
    Madam Chairwoman, in an economically ideal world, congestion 
pricing is a measure of value that should be reflected in the costs 
paid by the air carriers and their customers. But we do not live in an 
economically ideal world. Based on conversations with Members and staff 
of this and other Congressional Committees of relevant jurisdiction, we 
believe that there is a strong likelihood--I personally believe a 
certainty--Congress would require that any congestion pricing regime 
implemented waive congestion pricing for some, thus undermining any 
potential congestion mitigation for all. Further, the resolution of 
complex legal, economic, and most importantly, safety issues which 
would be necessitated by such a scheme would inevitably detract from 
efforts to get on with addressing the more critical long-term issues.
Section 4. Limited Exemption from Antitrust Laws
    Section 4 provides the Secretary of Transportation with the 
authority to approve scheduling agreements reached by airlines if they 
are not adverse to the public interest, and provides a process by which 
parties and the public can participate in this limited waiver of the 
antitrust laws.
    Once again, let me note that the thrust of section 4 is to find a 
way to work our way out of the infrastructure shortfall by means of 
demand management. While a laudable palliative, it too is an admission 
of failure--a failure to build an aviation system capable of meeting 
the public's demand. Nevertheless, we do want to be constructive and so 
offer the following comments concerning technical and operational 
concerns.
    Section 4(b)(1) grants authority for carriers to file a request 
with the Secretary to discuss cooperative scheduling arrangements, and 
section 4(b)(2) provides that an air carrier may file an agreement 
reached pursuant to such a discussion. However, section 4(d) grants the 
Secretary the authority to exempt a person from the antitrust laws to 
the extent necessary to allow the persons to execute the agreement. We 
think the order of proceeding needs to be reversed. Unless carriers are 
exempt from the antitrust laws for the purpose of holding such 
discussions, e.g. section 4(b)(1) discussions, they won't be able to 
come up with a section 4(b)(2) agreement limiting capacity.
    Even if the grant of the immunity preceded the discussions and 
agreement, we have concerns as to how the process would work. Let's 
say, for sake of this discussion, that three airlines serving Dulles 
obtained antitrust immunity and agreed to cap arrivals and departures 
during a particularly congested time of the day. In doing so, let's say 
that the carriers dropped their Dulles to Dallas, Dulles to Atlanta, 
and Dulles to Charlotte flights during that time period, a total of 
eight flight reductions, e.g. three flights to Dallas, two to Atlanta, 
and two to Charlotte. A month later, a fourth carrier that was neither 
a party to the discussions, or the agreement, seeing the change in 
schedule now adds flights to Dallas, Atlanta and Charlotte. 
Additionally, noting that congestion at Dulles has been mitigated by 
the reduction in eight flights, the carrier increases service from five 
additional cities to Dulles during the time period, creating a mini-
bank of connecting flights.
    So what have we here? Three carriers obtained anti-trust immunity, 
cleared out some of the flights during the congested period, saw their 
own schedules become more orderly, and a month later are rewarded by 
having their business skimmed by a non-participant who restores 
flights--and presumably delays--during the peak to the original number.
    We do not mean to dampen the creativity necessary to find remedies 
for the current situation. However, in the absence of any certainty 
that even immunized discussions will have their intended effect, we 
believe that carriers must be reluctant to enter into such scheduling 
talks in the first place if the potential, and likely result, is to be 
severely harmed in the marketplace.
    There is one approach that might be considered. While ATA's Board 
has not even discussed this, I throw it out in the interest of being 
constructive, mindful that it is a unique, circumstance-driven demand 
management response to the failure to build capacity to meet the 
public's requirements. Using the example cited above, is there some way 
that on a day with inclement weather, those three carriers who have 
eight flights to and from Dulles during the same peak time to the same 
destinations can coordinate their schedules and cancellations with 
antitrust immunity so as to accommodate as many passengers on those 
flights and reduce delays for everyone?
    It may be worth exploring that narrow circumstance before biting 
off the much larger antitrust immunity issue proposed in the bill.
    Secondly, I suggest the Committee explore with the Secretary the 
scope of his authority and his willingness to use his ``bully pulpit'' 
to deal with schedule exigencies without fear of adverse competitive 
consequences. I do not have any specific proposal in mind in this 
regard; however, I do have great confidence in the Secretary's 
understanding of the problems involved and his creativity in dealing 
with them.
Section 5. Expedited Coordinated Environmental Review Process
    The title of this section is music to our ears. For far too long 
airport capacity enhancement projects--and I might add Air Traffic 
Control capacity enhancement projects too--have been tied up in knots 
by the airport capacity, planning, development, and environmental 
review process. Whether it is the Army Corps of Engineers review of the 
Seattle wetlands mitigation program or the National Park Service's 
reluctance to allow the FAA to install critically needed Terminal 
Doppler Weather Radar at Floyd Bennett Field, a former military base in 
New York, the time has come to bring this charade to an end.
    With respect to section 5(a) it is our observation that 
environmental streamlining necessitates more than a congressional 
mandate to an agency to ``expedite'' or ``coordinate''--witness Federal 
Highway Administration's (FHWA) attempts to comply with TEA-21's 
similar provision. Evidently, without any specific direction other than 
the broad brush to ``expedite'' or ``coordinate,'' a legislative fix is 
not going to result in much improvement. We think the solution is to 
identify specific requirements that ``expedite'' or ``coordinate'' 
rather than an admonition to do so.
    Similarly, requiring that reviews be done concurrently rather than 
consecutively sometimes speeds up the process and sometimes bogs it 
down. Even the concept of a date certain for completing environmental 
reviews, without some action forcing mechanism, may not work. For 
example, the Endangered Species Act contains statutory deadlines that 
are exceeded as often as not using a favorite regulator's trick--the 
clock is not started until the documentation is ``complete''--a 
determination made exclusively by the agency only after multiple 
submissions and lengthy reviews. So while we feel that the notion is 
essential, without more specificity we are pessimistic about the 
effectiveness of this mandate. Clearly, we want to work closely with 
you to incorporate the kinds of detail that will make this essential 
component work effectively.
    We think you should also consider adding to the bill direction to 
the FAA and other agencies to focus on those impacts routinely 
implicated by airport infrastructure projects, and to require agencies 
with jurisdiction over other types of impacts and/or relevant resources 
to identify these during the initial scoping of the environmental 
review process. The purpose of this provision would be to eliminate 
unnecessary analysis of environmental impacts not implicated by a 
specific project and to reduce situations in which the FAA is only made 
aware of other potential environmental impacts late in the review 
process.
    With respect to Section 5(b), we do not believe that the current 
Federal judicial review procedures are the source of delay in getting 
these airport capacity projects approved. Rather it is the threat of 
litigation that often leads to over-documentation and unnecessary 
rounds of review that delays projects and inhibits the timely expansion 
of the national aviation system.
    Since some of these delay problems are driven by State laws, we are 
researching what Congress can do to alleviate these adverse State 
actions challenging airport projects of national significance. Clearly 
that is another area ripe for review and inclusion in this important 
legislation, and we plan to bring the results of our research to your 
attention.
    One other concept we want to bring to your attention. Attached to 
my testimony is a list of airport capacity projects that we all know 
must be undertaken in order to bring about the delay mitigation we all 
seek. We suggest that this list, or an even more extensive list, be 
incorporated into the legislation, and serve as a guidepost to 
airports, the FAA, other government agencies, and the courts as to what 
Congress believes to be the locations at which prompt consideration of 
required reviews is necessary. And, we urge that there be annual 
reports documenting the progress on the road to increasing capacity at 
these facilities. Should the Congress find that progress is not being 
made, we would urge consideration of even more dramatic steps to bring 
about the aviation infrastructure necessary to ensure the economic 
well-being of this country.
Section 6. Chief Operating Officer
    Section 6 provides that the Secretary of Transportation may set any 
level for the FAA Chief Operating Officer's compensation. Let's face 
it. This is a tough job that will need someone with broad experience, 
commitment, and a willingness to take on a very difficult and visible 
challenge. It is a rare individual, indeed, who would shoulder these 
burdens with the financial constraints contained in current law. Either 
we want to find the best-qualified individual and compensate him or her 
appropriately, or we will be willing to settle for less. The country 
cannot afford to settle for less. We urge the enactment of Section 6.
    While we are discussing the Chief Operating Officer position, we 
think that it should be made crystal clear that the FAA COO is 
empowered to hire or promote a number of other individuals who can 
similarly be compensated at market rates. We want the best and the 
brightest for this difficult task; we need to ensure that the tools to 
hire and retain them are available.
    Madam Chairwoman, we stand ready to work with you to move this 
legislation forward, to bring about the expeditious deployment of new 
technologies and new approaches to expediting the environmental issues 
associated with airport expansion, and to seeing a new day in aviation.
    Thank you for the opportunity to present this statement. We look 
forward to responding to the Subcommittee's questions.
                                 ______
                                 

ATA Top Ten ATC Modernization Program List

    This list is comprised of the top ten most important ATC-related 
programs that can be implemented over a 5-year period and which would 
result in real national aviation system capacity improvements.
    1. En Route Software and Hardware (HOST Computer) Upgrades: The 
HOST Computer is the ``central nervous system'' for the En Route Air 
Traffic Control System, but it operates on antiquated software. The 
upgrades included in these programs would bring the system to current 
standards, but also would bring the capability to automatically assign 
routes around impacted airspace such as areas affected by severe 
weather.
    2. Airspace Redesign: Along with the RVSM program, this badly 
needed redesign program will help to relieve the daily airspace 
saturation that causes ground delays and restrictive increased spacing 
between aircraft in the en route environment. By re-drawing air traffic 
control center and sector boundaries and revising arrival and departure 
routes at complex terminals, airplanes can be routed through the system 
more efficiently.
    3. Choke Point Initiatives: Over the past year, FAA and industry 
have developed 21 initiatives designed to help relieve seven choke 
point areas identified by users of the National Airspace System. These 
areas are in the Midwest corridor east of Chicago and several sectors 
dealing with traffic in/out of the New York terminal area--the most 
congested airspace in the world. The choke point initiatives are 
focused on resolving conflicts between full and equitable access to the 
NAS without violating FAA regulatory requirements or degrading safety 
in any way.
    4. Domestic Reduced Vertical Separation Minimums (RVSM): Perhaps 
the biggest problem in the ATC system today is the lack of en route 
airspace, brought on by outdated separation standards and requirements. 
Updating these standards by reducing the vertical separation above 
29,000 ft. (now 2,000 ft.) to 1,000 ft. will allow FAA to make better, 
more efficient use of our Nation's airspace.
    5. Aircraft Vortex Spacing System (AVOSS) at major terminals: This 
research, development, and implementation program will increase runway 
capacity at some 30 airports initially by allowing reductions in 
spacing on final approach in those instances when the system determines 
increased spacing, necessitated by wake turbulence, is not required.
    6. Controller-Pilot Data Link Communication (CPDLC): This program 
will speed the modernization of voice and data communications 
technology between controllers and pilots and allow for more automated 
information transmission between the ground and cockpit, especially in 
the oceanic environment.
    7. Free Flight Phase I and II Implementation: The Free Flight 
initiatives consist of a series of programs designed to improve 
National Airspace System operations by providing more direct routings 
while maintaining maximum safety margins throughout the system. These 
programs include efforts such as Collaborative Decision-Making (CDM), 
to improve communications and planning between the FAA and the users of 
the Air Traffic Control System; User Request Evaluation Tool, a 
conflict probing tool to facilitate more direct flight; the Center/
TRACON Automation System, a sequencing and spacing tool to aid in more 
efficient terminal operations; and the Surface Movement Advisor, to 
expedite ground operations at airports.
    8. Safe Flight 21 Initiatives: This government/industry partnership 
is designed to validate the concept of free flight in the real-world 
operating environment. There are nine major enhancements, including 
ADS-B (a satellite-based surveillance tool) and TIS-B. These 
initiatives will, among other things, help to reduce separation 
standards, reduce runway incursions, prevent surface collisions, and 
improve the provision of real-time weather reports to the cockpit.
    9. Full-Scale Global Positioning Satellites (GPS) Satellite 
Navigation Implementation (including LAAS, WAAS, and RNP/RNAV 
procedures): Completing the implementation of the GPS network, along 
with the Local Area Augmentation System (LAAS) and Wide Area 
Augmentation System (WAAS), will provide more accurate, reliable 
navigational capabilities in bad weather, allow for reduced separation 
requirements, more accurate precision approaches, and increased 
availability of direct routings. In addition, FAA must complete the 
development of new RNP/RNAV procedures that will allow pilots to use 
the most efficient departure and arrival procedures. These systems 
should be developed and implemented so that they are fully compatible 
with similar systems elsewhere in the world, for example the European 
Galileo (GNSS) system.
    10. Staffing: In order to fully implement these and other 
initiatives, FAA will need to hire and train 75 certification experts 
to aid in the acceptance of new avionics needed to use the new 
satellite systems and ADS-B. Also, 1,050 new air traffic controllers 
must be hired beginning in fiscal year 2001 to cover attrition and 
expand the number of sectors.

Top Airport Capacity Enhancements

    This list is comprised of the airport capacity improvements that 
are needed to truly improve delay problems in the United States. 
Coupled with our Top Ten ATC Improvements, these projects will 
significantly reduce delays, increase capacity, and improve the 
efficiency of the national air transportation system. This list is 
presented alphabetically and is not prioritized in any fashion.
    Atlanta Hartsfield (ATL)--A new 9,000, runway 10/28 is in the final 
EIS review stages. If the current EIS process completion date of July 
2001 is met, the runway can be in service by May 2005. This project, 
which is estimated to cost $1 billion, will provide capacity benefits 
of fifty percent--from 180 operations per hour to 270 per hour.
    Boston Logan (BOS)--A new unidirectional 5,000, commuter runway 
will alleviate delays at Boston Logan by as much as 60 percent during 
certain operational conditions. MASSPORT and the airline industry are 
trying to overcome local political opposition, which have prevented 
this runway from moving forward. Plans are mostly complete but 
construction is not expected to begin before 2002. It is estimated that 
this runway will cost $33 million.
    Chicago O'Hare (ORD)--A new 7,500, 9/27 runway, discussed then 
shelved in 1994, could be completed in the 2008 timeframe if planning 
was to re-start today and construction began in 2005-2006. Current 
``back of the envelope'' estimates place a $2 billion price tag on this 
project. This project would create the ability for ``triple 
approaches'' at O'Hare but would also require the relocation of other 
runways, taxiways and support facilities.
    Cincinnati (CVG)--A third, fully independent, 8,000, North-South 
runway that will improve capacity at Cincinnati by as much as 50-70 
percent by providing triple parallel approaches. The runway, with an 
estimated price tag of $220 million, is designed to open with full ILS 
capabilities. It is currently in the Draft EIS comment stages; this 
process should be completed by December 2001. If this date is met, the 
estimated opening date is December 2005.
    Dallas/Ft. Worth (DFW)--A 9,760, eighth runway at DFW would allow 
for four approach streams during IFR conditions, and would take the 
annual capacity to 1.2 million operations. This runway would be located 
on current airport property on the west side of the airfield. EIS work 
is anticipated to begin in 2001 and without undue delay the runway 
could come into service in 2006 at a cost of $350 million.
    Greensboro (GSO)--Airport management is expecting a final EIS 
decision on new runway 5L/23R in the spring of 2001. This runway 
carries an estimated price tag of $126 million and will increase the 
capacity of Greensboro by as much as 60 percent when it goes into 
service in late 2005 or early 2006.
    Los Angeles (LAX)--Airfield delays are becoming more common at LAX, 
especially as traffic continues to grow without any appreciable 
increases in airfield capacity. The city of Los Angeles is currently 
developing a master plan, and its preferred alternative includes 
marginal airfield improvements, such as additional taxiways to improve 
airfield circulation and an extension to one of the primary takeoff 
runways. However, because have political, environmental and community 
pressures, the preferred alternative does not include the addition of 
any new runways. There is also strong sentiment in the region that 
planning should focus on improvements to other airports in Southern 
California instead of LAX.
    New York LaGuardia (LGA) and Kennedy (JFK)--While there are no 
planned new runway projects at LaGuardia Airport, there are technology 
improvements (see the ATA Top Ten List) that would improve--but not 
resolve the shortage of--capacity at LaGuardia. Additionally, we 
understand that PANYNJ planners are beginning to look at potential new 
runway capacity at JFK; while we encourage this planning effort, there 
are no proposals that can be evaluated as of this writing.
    Philadelphia (PHL)--Airfield delays are a serious impediment to 
future air traffic growth at Philadelphia and the problem will be 
exacerbated with the completion of two terminal expansion projects in 
the next 2 years. The City has retained outside engineering and 
planning firms to study alternatives to: (1) provide more runway 
capacity, with the goal of accommodating dual independent jet 
operations; and (2) improve the constrained system of taxiways, with 
the goal of accommodating two way traffic in many areas. The City has 
not yet identified a preferred alternative.
    San Francisco (SFO)--Airport planners are in the preliminary 
engineering and environmental planning phases, including the modeling 
of capacity benefits of the various options for adding runway(s). The 
next step in the process is to identify a preferred alternative--no 
target date has been set yet. Even without unnecessary delay, any new 
runway(s) would not come into service until after 2008. Current cost 
estimates for improving runway capacity at San Francisco range from 
$2.5 to $10 billion.
    Seattle-Tacoma (SEA)--A new 8,500, third runway is in the final 
environmental approval process, awaiting permits from the Army Corps of 
Engineers and Washington State Department of Ecology. This runway, 
which will increase the capacity of Sea-Tac by 12-18 arrivals per hour 
in poor weather, is expected to begin service in 2006 and will cost 
$773 million.
    St. Louis Lambert (STL)--New runway (12R/30L) just received its 
final environmental approvals, and the airport is in the final stages 
of design and land acquisition. When completed in 2006, this $1.1 
billion runway will increase the hourly capacity of St. Louis Lambert 
by 43-51 percent.
    Washington Dulles (IAD)--Airport planners currently finishing the 
design of two new runways. New runway 1L/19R is targeted for completion 
in December 2011, will cost an estimated $183 million, and will reduce 
delays by approximately 33 percent. New runway 12L/30R, targeted for 
completion in January 2006, carries an estimated price tag of $216 
million, will reduce delays by an estimated 50 percent.
    Former Military Bases--The airline industry supports having FAA 
take a lead role in calling together the various supporters and 
opponents of former military bases (for example, El Toro, Moffitt, and 
Homestead) to determine what might be done to advance the conversion of 
these facilities into practical commercial aviation facilities. All 
operational, environmental and other concerns must be addressed, but 
the Federal Government, through the Federal Aviation Administration, 
must take a leadership role in advancing the cause of expanding 
commercial aviation infrastructure through the military base conversion 
process.
                                 ______
                                 

         [From the Los Angeles Times, Tuesday, March 27, 2001]

          Mayoral Candidates Join Opposition to Expanding LAX

 election: hahn and soboroff, who had given qualified support for the 
 plan, unite with their rivals as the campaign moves into the final 2-
                              week stretch

                   [By Matea Gold, Douglas P. Shuit]

    In a reflection of the sway held by vocal community organizations, 
all six top mayoral candidates have pledged to oppose a plan to expand 
Los Angeles International Airport, airport growth critics announced 
Monday.
    City Atty. James K. Hahn and businessman Steve Soboroff, who had 
previously given qualified support for the expansion, joined their four 
mayoral rivals in opposing the proposal to increase annual passenger 
trips at LAX from 67 million to 89 million by 2015.
    The pledge, drafted by an anti-expansion group, said the LAX master 
plan ``should not be submitted to nor approved by the city of Los 
Angeles.'' It also stated that the airport should be constrained to 
operate safely within its existing facilities and that Los Angeles 
should work with the airport and other communities to develop a 
regional air transportation plan.
    The pledges came as the campaign moves into its final 2-week 
stretch before the April 10 election. On Monday, Soboroff unveiled a 
plan to draw biotech firms to Los Angeles, and Rep. Xavier Becerra 
proposed giving Los Angeles residents rebates if they conserve 
electricity.
    The opposition by all six candidates to the LAX expansion is a blow 
to Mayor Richard Riordan and officials at the airport, who have spent 6 
years and more than $60 million putting together a $12-billion proposal 
to expand runways, build a new passenger terminal and make highway and 
rail improvements to serve an expected boom in demand for passenger and 
cargo services.
    Riordan has endorsed Soboroff for mayor, but his spokesman said 
Monday that the mayor does not expect the real estate broker to mirror 
all his positions. ``Everybody who has had an association with the 
mayor knows that he does not ask for ideological purity,'' said Deputy 
Mayor Ben Austin. ``He asks for his associates to exercise their 
judgment, which is what Steve is doing.'' The signed pledges were 
released Monday by the Alliance for a Regional Solution to Airport 
Congestion, a coalition representing about 2,000 residents of 
Westchester and Playa del Rey who want to see, among other measures, 
air traffic diverted to the Ontario and Palmdale airports.
    At a news conference outside the airport's north runway Monday 
afternoon, Rep. Maxine Waters (D-Los Angeles), Los Angeles City 
Councilman Ruth Galanter and El Segundo Mayor Mike Gordon said the 
candidates were listening to constituent complaints about noise levels, 
air pollution and traffic problems that would only worsen if the 
airport is allowed to continue to grow.
    ``All the candidates have begun to realize that the people impacted 
by the airport are a significant enough voting block that they are 
worth paying attention to,'' Galanter said.
    ``I am thrilled that we got all six candidates--that means the 
master plan is dead on arrival,'' Gordon said.
    Although their four opponents had already registered their 
opposition to the LAX expansion, Hahn and Soboroff had supported the 
proposal with some qualifications. Both said they wanted the airport to 
focus on mitigation measures to reduce traffic, noise and air pollution 
before construction of a new passenger terminal.
    In a statement released Monday, Hahn said the current master plan 
does not achieve a regional solution or address neighbors' needs.
    ``I believe we must scrap the current master plan and take a 
leadership role with our neighboring cities to find a truly regional 
solution,'' he said.
    Ace Smith, campaign manager for Soboroff, insisted that the real 
estate broker did not change his position about the airport.
    ``He's always said he's got serious problems with the master 
plan,'' Smith said. ``The question here was, `Does he favor it as it 
exists?' The answer is no.'' The airport plan is strongly backed by 
business and labor groups, who were quick to respond Monday.
    Lydia H. Kennard, executive director of Los Angeles World Airports, 
the city agency that operates LAX, called the pledges ``neither 
surprising nor particularly significant.'' Kennard said she was 
confident that once the election is over ``the next mayor will work 
constructively'' with the airport to deal with its problems.
    Brad Rooker, president of a sheet metal workers union local in Los 
Angeles, said he believes that Hahn and Antonio Villaraigosa, who has 
the endorsement of the County Federation of Labor, AFL-CIO, will 
revisit the airport issue if elected.
    Meanwhile, Becerra took on another hot issue Monday, proposing an 
energy-saving rebate plan that would give consumers who save 
electricity a discount on their bill.
    The Democratic congressman laid out a plan that would reward people 
who save energy by reselling the electricity they would have used to 
the State power grid, and then splitting the profit from the sale with 
the consumer. The rest of the money would go to paying down the DWP's 
debt.
    Under his proposal, Becerra said people who reduce their energy use 
by 20 percent would get a 36 percent discount in their bill. Those who 
cut their electricity usage by 10 percent would save 15 percent on 
their bill.
    ``Simply because we're an island in a stormy sea doesn't mean we 
shouldn't be conservationists,'' said Becerra, who challenged the mayor 
and the Department of Water and Power to implement his idea right away. 
``This is a win-win situation. Why we're not doing this right now, I 
don't know.'' Frank Salas, chief of staff for DWP General Manager S. 
David Freeman, said the agency would look at the plan.
    ``We've got to work out the details, but it's something that we 
would consider,'' Salas said. ``If we could conserve energy, that's 
that much more energy we could sell to the State and help get us 
through the crisis in the summer.'' If the DWP recommended the plan, it 
would have to be approved by the department's board, the City Council 
and Riordan.
    Austin said that Riordan is ``open to all proposals.'' ``The bottom 
line is that Los Angeles has a secure and affordable source of energy, 
and only because of that are we able to have a conversation about how 
to help our neighbors,'' Austin added.
    On Monday, Becerra demonstrated how to cut electricity use at his 
downtown headquarters: He oversaw maintenance workers unscrewing light 
bulbs, then shut down an idle computer. And he even got down on his 
knees and cleaned out the campaign's packed refrigerator, explaining 
that keeping air circulating inside the refrigerator and cleaning the 
condenser coils underneath or behind the machine helps reduce energy 
use.
    Meanwhile, at a campaign stop in Northridge, Soboroff unveiled his 
plan to promote the biotech and biomedicine industries.
    He proposed a tax credit for companies that create jobs in those 
sectors, but declined to say how much it might cost.
    He also promised to hire a specialist in the mayor's office to 
focus solely on luring biotech and biomed companies to Los Angeles. And 
he pledged to work with leaders of USC, UCLA and other academic 
institutions to encourage commercial development of their research.
    With an ample supply of labor, financial institutions, real estate 
and research institutions, Los Angeles can support dramatic growth in 
the industry, he said.
    ``We have the ingredients to bake the cake; we just haven't put 
them together well,'' he said.
    Hahn picked up support from a group of Asian Pacific American 
leaders Monday who credited the city attorney for his outreach to Asian 
communities in Los Angeles. The group of backers who gathered in Little 
Tokyo to announce their support for Hahn included former Harbor 
Commission President Leland Wong, Francis Hashimoto, president of the 
Little Tokyo Business Assn., and Joseph Ahn, past president of the 
Korean American Coalition.

    Senator Hutchison. Thank you, Mr. Merlis.
    Mr. Jeff Fegan, who is the Chief Executive Officer of 
Dallas/Fort Worth International Airport, and one of my 
constituents, and I welcome you here representing the airports.

        STATEMENT OF JEFFREY P. FEGAN, CHIEF EXECUTIVE 
        OFFICER, DALLAS/FORT WORTH INTERNATIONAL AIRPORT

    Mr. Fegan. Thank you, Chairwoman Hutchison, Senator 
Rockefeller, and distinguished Members of the Subcommittee. I 
do appreciate the invitation to come and testify here today on 
the very serious issue of airport capacity and delay.
    We certainly support the Aviation Delay Prevention Act, 
especially those provisions that expedite the environmental 
review process that is frustrating our efforts to add capacity 
at DFW as well as airports around the Nation. As you all know 
full well, airport expansion has become an extremely lengthy 
and contentious process, and your bill will certainly help to 
change that.
    We all have experienced delays, and as many people have 
stated already today, the expectation of passenger growth to 
exceed 1 billion passengers by 2010 is really causing airports 
around the country to go through major expansion programs to 
meet that demand. That process is a very intensive, very 
expensive process of developing infrastructure and adding 
capacity necessary to safely and efficiently transport 
passengers through our Nation's airports.
    At DFW, we are blessed with 18,000 acres of land. In 27 
years we have grown to be the third busiest airport in the 
world in terms of aircraft operations, and we still need to do 
more to help alleviate the impending gridlock that really will 
require additional infrastructure at our airport.
    We, like many other airports across the Nation, have 
entered into a capital development program. Ours is about $2\1/
2\ billion. It involves the construction of a new terminal 
building and a new people-mover system. It also will involve 
the construction of three runway extensions, aircraft holding 
pads and new taxiways.
    But even with all those projects--projects that will add 
capacity and that will go a long way toward addressing delay 
issues--probably the single most crucial element to increasing 
capacity at airports is by adding new runways. There have only 
been six new runways in the 1990s.
    Apparently there are some 15 airports that are looking at 
adding runways this decade, but for the most part, the blame 
for the delays in building new runways and increasing capacity 
often lies in the laborious and time-consuming environmental 
review process, a process that can take years to complete and 
that must be finalized before any construction of new runways 
can begin.
    Not surprisingly, the airport is fully supportive of your 
effort in the Aviation Delay Prevention Act to expedite the 
environmental review process. This legislation comes at a very 
opportune time, because we are now in the process of beginning 
to look at our eighth runway at DFW Airport. This will involve 
a revalidation of an environmental impact statement that we 
completed in the early 1990s. In fact, the FAA's record of 
decision for runway 16/34 East and 16/34 West, which was issued 
on April 6 of 1992, was the culmination of about 3\1/2\ years 
of environmental effort.
    But in addition to those 3\1/2\ years, it also took us two 
additional years due to legal challenges, another year for 
design, and then another two years for construction, so from 
beginning to end, not quite 10 years went by before we were 
able to add our seventh runway in 1996. So again, it just 
illustrates, I think, the difficulty and the challenges we have 
in adding new runway capacity.
    Our experience with the seventh runway and our desire to 
build our eighth runway in a more expedited manner led us to 
partner with the American Association for Airport Executives 
and ACI in terms of the EASE initiative--EASE being Expedited 
Airport System Enhancement initiative--and again, we think this 
will go a long way in helping us get through the next process 
as we look to build our eighth runway.
    Under ACI/AAAE's EASE legislation, the FAA will be called 
upon to identify critical national airport capacity projects, 
such as our eighth runway. The FAA and all agencies that 
conduct environmental reviews will be expected to give these 
critical projects the highest priority.
    DFW Airport also fully and completely supports any 
legislation that will expedite and coordinate the environmental 
review process and that will ensure that reviews are done 
concurrently and not consecutively, as called for in the 
Aviation Delay Prevention Act.
    And finally, the one other area that I think could really 
expedite critical capacity projects, especially in the terminal 
area, is in the use of the Passenger Facility Charge (PFC). 
PFCs have been enormously valuable to airports to help 
construct new runways and terminals. We would urge you to 
consider adding to your bill provisions that would broaden PFC 
eligibility to allow airports to construct the base shell of 
terminal buildings. It does us no good to be able to add gates 
if we cannot build the infrastructure necessary to make the 
terminal work.
    The fact that only about 80 percent of the terminal 
building is eligible for PFC funding again causes us some 
concern as we try to move forward with new terminal 
construction for airlines that need new terminal space. There 
is no doubt among members of the aviation community that the 
escalating delays and cancellations will continue unless we can 
work collectively and address the problems with solutions that 
will work.
    I can't emphasize enough that the single most effective 
method of reducing delays at our Nation's airports--short of 
regulating airline scheduling practices or capping demand--is 
to increase capacity. Airport operators need the funding and 
the flexibility to build additional runways, terminals and gate 
space to handle the growth. In short, airports cannot control 
flight delays and cancellations, but I believe we can add 
necessary runway and terminal infrastructure and expedite the 
environmental review process. Together, I think these 
initiatives will go a long way in mitigating the congestion 
that is plaguing our system today.
    Again, thank you very much for the opportunity to testify 
today.
    [The prepared statement of Mr. Fegan follows:]

   Prepared Statement of Jeffrey P. Fegan, Chief Executive Officer, 
                Dallas/Fort Worth International Airport

    Senator Hutchison, Senator Rockefeller and distinguished Members of 
the Subcommittee, I appreciate the invitation to testify before you 
today on the very serious issues of airport capacity and airline 
delays. We support passage of the Aviation Delay Prevention Act, 
especially those provisions that would expedite the environmental 
review process that is frustrating our efforts to add capacity at DFW 
and other of the Nation's key hub airports. As you know full well, 
Senator Hutchison, even in Texas, where we are blessed with Nature's 
bounty, airport expansion has become an extremely lengthy and 
contentious process. Your bill will certainly help to change that!
    As seasoned travelers, all of you have surely experienced the 
anxiety and frustration associated with the ever-increasing flight 
delays and cancellations that have plagued--and that continue to 
plague--the United States' aviation system. Unfortunately, the 
situation is only expected to get worse. In fact, air travel in the 
United States alone is expected to grow from its current level of 650 
million enplaned passengers to almost one billion enplaned passengers 
by the year 2009, only eight short years away. That growth is equal--
literally--to the traffic handled by 10 NEW DFW International Airports. 
That's truly phenomenal growth. In addition, international travel is 
also expected to increase--in fact almost double--over the next 10 
years to nearly 250 million enplanements by the year 2011.
    In an effort to accommodate this expected explosion in air travel 
over the next decade, airports across the country have begun the 
laborious--not to mention very expensive--process of developing the 
infrastructure and adding the capacity necessary to safely and 
efficiently transport passengers through our Nation's airports.

DFW Airport's Capital Development Program: Adding Capacity

    Blessed with 18,000 acres, DFW certainly has room to add the 
necessary capacity. As many of you already know, DFW Airport has been 
operational for almost 27 years and has grown to become the third 
busiest airport in the world in terms of operations. As air traffic at 
DFW Airport and across the Nation becomes increasingly congested, 
however, there is little that we, as airport operators, can do to help 
alleviate the impending gridlock without the proper infrastructure in 
place to accommodate the demand.
    Like many other major airports across the country, DFW recently 
embarked upon its latest Capital Development Program, which will see 
DFW Airport invest $2.5 billion for a variety of capacity-enhancing 
projects designed to alleviate delays in our terminals and on our 
runways. Specifically, DFW Airport is in acute need of additional gate 
space to accommodate the increase in international and domestic flights 
and new air carriers, including the influx of low-fare carriers that 
want to serve or expand service at the Airport.
    To accommodate this increase, we have recently broken ground on a 
new, $1 billion international terminal--``Terminal D''--that will 
provide DFW Airport's international passengers, our fastest-growing 
passenger segment, with a single, consolidated, world-class travel 
facility. Most importantly, this new terminal will provide DFW Airport 
with 23 additional and much-needed gates to add to our existing 132 
gates.
    Also to enhance capacity, DFW Airport is building a new People 
Mover System, which will provide Airport passengers with a high-speed, 
state-of-the-art system of trains that will enable passengers to travel 
between connecting gates within the Airport's main terminal area in 
record time. With trains scheduled to arrive from each direction every 
2 minutes, this new system will provide all passengers--especially 
passengers who must rush to make connections between and among our 
soon-to-be five terminals--with a very high level of service.
    In addition to the new terminal and the new People Mover System, 
DFW Airport is also undertaking several airfield enhancement projects, 
including three runway extensions, aircraft holding aprons and 
taxiways, in order to continue to improve aircraft movement, reduce 
taxiway congestion and increase volume. These projects will enhance air 
traffic controllers' efficiency, help accommodate the increased 
passenger flow and reduce delays at DFW Airport and across the Nation.

The Environmental Review Process

    While it's true that the projects I have just described will go a 
long way toward reducing delays, probably the single most crucial 
element to increasing capacity is adding runways.
    According to the Department of Transportation's Office of Inspector 
General (OIG), between 1991 and 2000, only six new runways were added 
at the Nation's largest airports--which included DFW's seventh--with an 
additional 15 runways either proposed or under construction, including 
DFW's eighth. With the increasing number of delays occurring around the 
country, building only six new runways in 10 years simply will not be 
enough to help alleviate the congestion at our Nation's airports.
    Moreover, of the 15 runways that are either proposed or under 
construction, most of them will not be operational for several years, 
assuming current projections hold. For the most part, the blame for the 
delays in building new runways and increasing capacity at our Nation's 
airports rests with the laborious and time-consuming environmental 
review process--a process that can take years to complete and that must 
be finalized before construction of a new runway can begin.
    Not surprisingly then, Senator Hutchison, DFW Airport is fully 
supportive of your effort in the Aviation Delay Prevention Act to 
expedite the environmental review process.
    This legislation could not have come at a more opportune time. DFW 
Airport is poised to begin preliminary work on the Airport's planned 
eighth runway this year. This will involve a revalidation of the 
Environmental Impact Statement (EIS). The EIS studies for the Airport's 
east and west runways--the Airport's seventh and soon-to-be eighth--
were conducted and approved in the early 1990s.
    In fact, the FAA's Record of Decision for Runways 16/34 East and 
16/34 West, which was issued on April 6, 1992, was the culmination of 
three-and-one-half years of environmental effort by DFW Airport and the 
FAA. At that time, the Final Environmental Impact Statement (FEIS) for 
the two new runways was one of the most comprehensive environmental 
efforts ever conducted for new aviation facilities in the U.S.
    In addition to the three-and-one-half years it took to complete the 
EIS, the process was further delayed by 2 years due to legal 
challenges, another year for the runway's design process and still 
another 2 years for the construction process. From beginning to end, it 
took DFW Airport nearly 10 years to have our seventh runway in place 
and operational, with the majority of this time taken up by the 
environmental review process.
    This extended comment review period granted the FAA and the DOT 
during DFW's early 1990s EIS study--which is routinely granted the FAA 
and DOT--has resulted in delays, not only in terms of extending the 
project schedules but, ultimately, in terms of airline arrival and 
departure delays. A runway project that should have opened in 1990-91 
was not completed until September 1996.
    Under the current Federal environmental review process, DFW Airport 
will have to wait until 2007 to open our eighth runway, and that is 
only if DFW Airport is able to begin the EIS revalidation process this 
year.
    Our experience with our seventh runway and our desire to build our 
eighth runway in a more expedited manner led us to partner with the 
American Association of Airport Executives (AAAE) and Airports Council 
International-North America (ACI-NA) and propose legislation to 
Congress earlier this month.
    The proposed legislation--our Expedited Airport System Enhancement 
initiative, also known by its acronym EASE--will accelerate the FAA 
review process so that work on crucial capacity-enhancing projects, 
such as DFW Airport's eighth runway, can be completed much sooner than 
the current system allows.
    Under ACI/AAAE's EASE legislation, the FAA would be called upon to 
identify ``critical national airport capacity'' projects such as DFW's 
eighth runway. FAA and all agencies that conduct environmental reviews 
would be expected to give these ``critical'' projects the highest 
priority.
    Other provisions of EASE would require states to accommodate these 
critical airport projects when they draft regional air pollution 
reduction plans for areas that fail to meet National air quality 
standards. EASE would also loosen FAA restrictions on use of local 
airport funds for environmental mitigation in neighboring communities.
    We commend the provisions of EASE for the Subcommittee's 
consideration as an integral part of its final Bill.
    DFW Airport also fully and completely supports any legislation that 
will expedite and coordinate the environmental review process and that 
will ensure that reviews are done concurrently and not consecutively, 
as called for in Senator Hutchison's Aviation Delay Prevention Act. DFW 
Airport is also fully supportive of completing all environmental 
reviews by a date certain, thereby ensuring that the current practice 
of extending the comment review period by the FAA and the DOT is not 
allowed to continue.
    I note, Senator Hutchison, that the Administration agrees with you 
on the need for environmental streamlining. DOT Secretary Mineta, in an 
address to the Aero Club of Washington last week, came out in favor of 
such action. To quote the Secretary, ``we think we can, in many 
instances, conduct State and Federal environmental assessments 
simultaneously, rather than consecutively, and save months if not years 
in the process.''

Airline Scheduling Practices

    DFW Airport is also supportive of the provision in Senator 
Hutchison's bill that calls for further study of possible remedies for 
alleviating airport congestion, such as congestion mitigation fees to 
be paid by the airlines.
    DFW Airport is not necessarily an advocate of imposing a congestion 
mitigation fee on airlines for overscheduling practices during peak 
hours. While I believe that a fee may serve as a deterrent for 
overscheduling, we should remember that there is still the issue of 
supply and demand: airlines would not schedule flights--profitable 
flights during peak hours--if there was not a demand for the flights. 
Rather, I believe the best, most surefire method for meeting the 
increase in flights is to accommodate them by increasing capacity at 
our airports.
    Fortunately, DFW Airport has the landmass to support additional 
infrastructure and development. However, a congestion mitigation fee 
may be supported by those airports that simply do not have the 
available space to build the necessary infrastructure, leaving them 
with no choice but to control congestion through the imposition of a 
fee upon airlines that continue to overschedule flights during peak 
hours.
    I commend you, Senator Hutchison, and this Subcommittee for its 
farsightedness on this issue, and I look forward to the report and 
recommendations.

Passenger Facility Charge (PFC) Terminal Eligibility

    Finally, I would like to address a critical capacity and funding 
issue with you today that is not addressed in the legislation, as 
drafted, but that I hope will be included in a subsequent version of 
this bill.
    PFCs have been enormously valuable to airports to help construct 
new runways and terminal gates over the past 10 years. But we would 
urge you to add to your Bill provisions that would broaden PFC 
eligibility to allow airports to construct the basic shell of terminal 
buildings. There is little consolation in building gates if airports 
cannot build the structures that house the gates.
    DFW tried last year in AIR-21 to expand PFC eligibility to include 
the building of the shell of a new terminal building. If PFC monies can 
only be used to build 80 percent of a new terminal, then an airport 
must go to the bond market to finance the remaining 20 percent. This 
may require prior approval of the airline tenants, which can delay the 
project and further jeopardize the needed new capacity. However, if the 
entire shell is eligible for PFC funding, then airports can build new 
capacity much more rapidly. Simply put, if we are to have new airport 
terminal capacity online to meet the FAA forecasts, then we need to 
broaden the PFC eligibility definition for airport terminals and gates.

Conclusion

    There is little doubt among members of the aviation community that 
the escalating delays and cancellations will continue unless and until 
we can, collectively, address the problems with solutions that will 
work.
    Ladies and gentlemen, I cannot emphasize enough that the single 
most effective method to reduce delays at our Nation's airports--short 
of regulating airline scheduling practices or capping demand--is to 
increase capacity.
    Airport operators need the funding and the flexibility to build 
additional runways, terminals and gate space to handle the dynamic 
aviation growth that is expected in the coming years. In short, while 
airports cannot control flight delays and cancellations, I firmly 
believe that by adding the necessary runway and terminal infrastructure 
and expediting the environmental review process, we will, in the long 
run, be able to mitigate a great deal of the congestion that is 
plaguing our system today.
    On behalf of the Dallas/Fort Worth International Airport, I look 
forward to working with this Subcommittee and others in Congress to 
bring these ideas to fruition. Thank you again for the opportunity to 
testify today.

    Senator Hutchison. Thank you, Mr. Fegan.
    Mr. Charles Barclay, the President of the American 
Association of Airport Executives.

 STATEMENT OF CHARLES BARCLAY, PRESIDENT, AMERICAN ASSOCIATION 
                     OF AIRPORT EXECUTIVES

    Mr. Barclay. Chairwoman Hutchison, Ranking Member 
Rockefeller, and Members of the Subcommittee, I would like to 
just submit my testimony and make three brief points if I 
could.
    The first one is, thank you. The work this Subcommittee has 
done over the last several years in adding resources for 
airports--both the increased AIP levels and the increased PFC 
levels--are a key part of the solution to this problem down the 
road. If those had not been already put in place by this 
Subcommittee and the Congress, we would be a lot farther away 
from a solution than we are. So number one is, thank you.
    Number two is, I would like to talk a little bit about our 
network system, because we have been focusing a lot on the 
problems with the major hubs in our network, and with good 
reason. There really are problems there. The Subcommittee has 
already wrestled with some of the competition issues. The delay 
issue is another one where you wind up focusing on these key 
hubs, but I think any discussion of our system needs to start 
from the point of view that having a network system focused on 
major hubs has tremendous advantages, particularly for 
servicing small communities.
    A network system allows you to collect up lots of partners 
in one place at one time, which creates efficiencies that keep 
fares as low as they can be. It also dramatically increases 
frequency of flights, particularly to smaller communities, 
versus a network where we only had point-to-point service 
between markets which could support an airplane dedicated to 
two points.
    The network system is a valuable asset. Now, the dark side 
of that system is that when something goes wrong at one of 
those hubs, the same kind of multiplication of benefits you get 
in good times, you get the opposite of that when you have a 
thunderstorm roll through a major hub airport. It ripples 
delays around the system. We just have cascading unhappiness 
that goes on out there. Now, that is a disadvantage of this 
network system that is well worth paying when those are just 
occasional events, a thunderstorm every now and then in 
Atlanta, or Dallas, or anywhere else.
    Last year, our problem was that one 1 of every 4 flights 
was either delayed or canceled. When you wind up with that kind 
of an equation staring you in the face, it is understandable, 
the frustration of passengers and Members in starting to 
question the usefulness of those kinds of major hubs, but we 
need to fix that system, not all dream about direct point-to-
point service, because that will serve the largest markets, but 
it will not serve small communities.
    The good news about our system is that we can focus our 
attention on a few key airports out there. There is really a 
limited number. We said 10 to 15 airports where we can focus 
our attention. If we do something about the capacity of those 
airports, we are going to provide enormous benefits to the 
entire system, to passengers in all communities, and all 
passengers trying to use this system, because of the way it 
operates.
    That brings me to my third point, which has already been 
very well made by the Members who spoke and that is about 
streamlining the debating process for getting to these 
additions. Jeff and I were talking before the hearing, and to 
put this in context, Jeff has at DFW seven runways. He is 
adding an eighth runway for 62 million passengers at DFW.
    In the past decade, we have added 200 million passengers to 
our system, and we have added six runways at major airports, so 
the equation we are not keeping up with demand for the system 
and, as Ed said, we do not want to get into demand management. 
This is a critical infrastructure system if we are going to 
have a modern economy working, so our proposal, similar to the 
concept that is in the bill, is put a statute of limitation on 
how long you can debate whether or not to go forward with a 
project.
    Do not change the environmental standards at all. We are 
not asking for any changes in the standards. We are saying we 
have got to stop the gaming of the process to never get to 
applying the standards. We measure additions of runways in 
decades instead of years. That is by definition a broken 
process. We need to do something about that.
    We have the EASE program. You properly put forward the 
proposal that is in the legislation before the Subcommittee. 
They have the same goal, and we look forward to working with 
the Subcommittee to try to do something again not to lessen 
environmental standards, but to put a reasonable period of time 
on these projects that are not just locally important. But 
because of the kind of system we run, they are important to 
every one in the Nation, and we want to have a debate over 
those. We want to look at alternatives, but then we want a go 
or a no-go decision. If it is a go we will build it at 
airports. If it is no-go, we will start looking for a way to 
handle that capacity issue.
    Thank you. I will be happy to answer any questions.
    [The prepared statement of Mr. Barclay follows:]

           Prepared Statement of Charles Barclay, President, 
               American Association of Airport Executives

    Senator Hutchison, on behalf of the thousands of men and women 
across the country who manage and operate America's airports, I 
appreciate the invitation to testify today on legislation you have 
introduced to tackle aviation delays. It is fitting that the first 
hearing held in this subcommittee under your leadership is focused on 
addressing this pressing problem.
    As you are well aware, aviation capacity constraints and the 
resulting delays have reached the crisis point. The Department of 
Transportation Inspector General recently reported that 1 in 4 flights 
last year were either delayed, canceled or diverted, affecting 163 
million passengers. That represents a 20 percent increase over 1999, 
which was a record year in terms of delays.
    Unfortunately, the frustration and inconvenience that travelers 
face today in dealing with an overcrowded and overburdened aviation 
system will only grow worse. This spring and summer promise to be as 
miserable as the last several as more and more flights are crowded into 
the system. Passenger traffic within the next decade is expected to 
explode from today's 680 million to one billion annually. Continued 
growth in the cargo and general aviation segments will cause additional 
strain.
    Despite the huge growth in air travel over the past decade, the 
construction of new runways and other critical capacity enhancing 
projects hasn't kept pace with increased demand. Since 1991, only six 
runways were added at the largest airports where delays are 
concentrated. These runways were opened in Las Vegas in 1991, Detroit 
in 1993, Salt Lake City in 1995, Dallas/Fort Worth in 1996, 
Philadelphia in 1999, and Phoenix in 2000. Although a number of 
additional runway projects are now planned, the process for reviewing 
and approving these projects threatens to delay their construction.

150 Miles of Runway Required to Meet Future Demands

    As a result, many of the Nation's busiest airports don't have the 
capacity to accommodate today's traffic let alone the crush of activity 
projected for the immediate future. In its 1998 Aviation Capacity 
Enhancement Plan, the Federal Aviation Administration cited 27 airports 
that are seriously congested, experiencing more than 20,000 hours of 
delay annually. FAA forecasts that unless airport capacity investments 
are made, the number of seriously congested airports will grow to 31 by 
2007.
    Much of that delay is due to the lack of runway space. According to 
preliminary discussions with the FAA, that fact will be verified in its 
soon-to-be-released capacity benchmarking study, which is focused on 
determining the capacity situation at major airports. Runway space, the 
study will likely suggest, is the single greatest solution to adding 
capacity and reducing delays.
    Two miles of runways at the top 25 delay-prone airports would take 
care of virtually all of the delay in the system. The solution, 
therefore, is 50 miles of runways.

With Additional Federal Funding in Place, Environmental Streamlining 
                    Should Be a Priority

    Congress took a giant step forward in addressing the capacity 
crisis last year with the passage of FAA reauthorization legislation 
that provided significant increases in capital funding for airports and 
air traffic control modernization. For airports, an increase in Airport 
Improvement Program funding and the modest increase in the federally 
imposed cap on Passenger Facility Charges will go a long way toward 
reducing the $3 billion annual investment gap that we faced during the 
previous decade. Ensuring that AIP is fully funded at $3.3 billion in 
fiscal year 2002 will provide further help.
    While continued Federal support is a must, the most serious 
challenge today in enhancing capacity lies in putting additional 
resources to work as quickly as possible on critical projects such as 
runway construction at the Nation's most congested airports. 
Unfortunately, the process for approving these proposals routinely gets 
bogged down in a seemingly endless maze of overlapping, duplicative and 
onerous environmental reviews. Runway projects routinely take 10 years 
from start to finish and many take longer.
    As the General Accounting Office pointed out at a hearing last 
October on why runways cost so much and take so long to build, 
overlapping Federal and State environmental requirements can delay 
airport projects ``without necessarily providing commensurate 
environmental benefits.'' The problem is also becoming more evident 
throughout the aviation industry. Several airline CEOs and a number of 
other groups have recently voiced support for expediting the process to 
approve runways.
    We appreciate your recognition of the problem and your willingness 
to address environmental streamlining in the bill we are discussing 
today. We look forward to working with you as this measure moves 
through the legislative process.

Accelerating Process Could Add Capacity Without Harming the 
                    Environment

    While no one questions the wisdom or need for strong environmental 
stewardship, it is clear that the current system unnecessarily delays 
many critical projects for the sake of process rather than 
environmental benefit. In our view, the need for aviation 
infrastructure improvements is fundamentally compatible with the need 
for environmental progress. It is clear, however, that the interests of 
our aviation system will be best served by accelerating the pace at 
which delay-reducing projects are moved forward. Such acceleration 
should not relax our national agenda of environmental progress.
    From the standpoint of water and air quality, noise, and dozens of 
other environmental concerns that help to define the end product, it 
matters little whether the process of moving the project forward takes 
weeks, months, years, or decades. What is critical is getting the 
appropriate environmental safeguards identified early and built in as 
the project progresses. Airports have proven effective in accomplishing 
that goal, and we look forward to working with this subcommittee and 
the Congress to implement some common-sense procedural changes that 
will accelerate key project approval while maintaining strict 
environmental safeguards.
    In the absence of such changes, we are doomed to live with a system 
that routinely drags runway projects out a decade or more. We simply 
don't have that kind of time.

The Current Process: Numerous Players, Numerous Considerations

    Typically, the current environmental review process for major 
capacity enhancing projects begins with the incorporation of the 
project into an airport master plan, which is subject to FAA review and 
approval. Master plans almost always include preparation of initial 
environmental review, including key analysis of project purpose, the 
need for the project, and potential alternatives to the project. Master 
plan documents are part of the record for environmental review and 
provide much of the data the FAA and other agencies require for that 
review.
    Beyond the airport master plan, the National Environmental Policy 
Act of 1969 (NEPA) creates the procedural framework for review of 
environmental impacts and for compliance with applicable Federal, 
State, and local laws. NEPA procedures apply to ``Federal actions'' 
that ``significantly affect the quality of the human environment.'' 
Many critical capacity projects such as new runway construction 
typically meet that definition and as such are required to follow NEPA 
guidelines. In addition, several States have ``NEPA-like'' requirements 
that must be followed.
    The NEPA process for airports is managed by the FAA as the lead 
agency coordinating activities with other Federal and State agencies as 
well as with the public. Other agencies or individuals involved with 
the NEPA process include, but are not limited to, the Environmental 
Protection Agency, the Fish and Wildlife Service, the Army Corps of 
Engineers, the Advisory Council on Historic Preservation, the State 
historical preservation officer, and State air and water pollution 
agencies.
    These agencies administer the following laws, which typically are 
addressed as part of the NEPA process or parallel to it: The National 
Historic Preservation Act; The Farmland Protection Policy Act; the 
Department of Transportation Act; the Clean Water Act; the Clean Air 
Act; the Endangered Species Act; the Airport and Airway Improvement 
Act; the Comprehensive Environmental Response, Compensation and 
Liability Act; and the Resource Conservation and Recovery Act, among 
others. In addition, Environmental Justice must be addressed.
    Building on the initial environmental review contained in the 
master plan, FAA and the airport work with the appropriate agencies 
under NEPA and other statutes to develop an environmental analysis (EA) 
or a more detailed environmental impact statement (EIS) when necessary. 
This documentation must adequately define the purpose and need for the 
project, identify project alternatives, and discuss the affected 
environment, including nearby land uses, population characteristics, 
future plans for the area and existing environmental conditions. FAA 
manages the EA/EIS process.
    The EA/EIS must also discuss the environmental consequences in 20 
defined impact categories. They are: noise; compatible land use; social 
impacts; induced socioeconomic impacts; air quality; water quality; 
publicly owned land of a public park, recreational area or wildlife and 
waterfowl refuge or land of an historic site; historic resources; 
biotic communities; endangered species; wetlands; floodplains; coastal 
zone management; coastal barriers; wild and scenic rivers; farmland; 
energy supply; light emissions; solid waste impact; and construction 
impacts.
    Finally, the EA/EIS must address conflicts with other governmental 
objectives, policies, laws and plans; adverse environmental 
consequences which cannot be avoided; irreversible and irretrievable 
commitments of resources, and mitigation of adverse environmental 
impacts. When this lengthy process is finally navigated, a Record of 
Decision (ROD) is issued by the FAA and construction is allowed to 
proceed. In many cases, however, the ROD spurs legal challenges that 
can further delay the project.
    With so many players and so many considerations, it is not 
difficult to imagine why the process takes so long to complete. The 
attached document provides a visual account of the 44-step approval 
process.

Case Study: Memphis-Shelby County Airport Authority

    Consider the Memphis-Shelby County Airport Authority and their 
efforts to add infrastructure to accommodate anticipated growth at 
Memphis International Airport. Before construction ever began, the 
planning processes included two master plans, two FAA/industry capacity 
plans, one FAR Part 150 noise compatibility plan, one environmental 
assessment, and one environmental impact statement. These efforts 
consumed nearly 10 years of time to complete before construction began.
    At Memphis, the initial master plan--which included the 
construction of a third parallel runway, the reconstruction and 
extension of an existing runway, the construction of new and expanded 
taxiways, terminal building expansion, improvements to ground 
transportation facilities, and the continued expansion of air cargo 
facilities--was begun in 1984 and completed in 1986. This phase 
included the development of an FAA approved Part 150 noise 
compatibility program to insure that capacity projects were tied to 
needed noise mitigation projects.
    An environmental assessment of the master plan followed in 1987 to 
identify and quantify the effect of the proposed expansion on noise, 
water quality, air quality, and other impacts on communities 
surrounding the airport. Due to the requirement for multi-agency 
reviews by numerous local, State, and Federal agencies, the EA took 5 
years to complete. During this time, each agency worked at its own pace 
and often with conflicting viewpoints on impacts and needed 
remediation.
    Upon completion of the EA in 1991, the Airport Authority began the 
environmental impact statement. As part of this process, the FAA 
required extensive reviews and supplemental studies to be completed as 
a result of comments from the Environmental Protection Agency and other 
agencies. The attorneys for the FAA were particularly deliberative 
during this period because of concerns about legal challenges. A Record 
of Decision was finally issued in May 1993 some 7 years after the 
beginning of the environmental review process.
    Thankfully, the construction aspect of the process has been more 
successful. The parallel runway was completed in 1996 and construction 
and extension of the existing runway was completed in September of 
2000. In the end, the process took 16 years at a cost of $250 million. 
Noise mitigation projects consumed another $150 million.
    The Memphis example illustrates the problem with the current 
system. At no time in the planning or review process did the airport 
oppose or attempt to avoid any mitigation efforts recommended or 
required by local, State, or Federal agencies. The extensive time 
delays were due to lengthy review times and disagreement among the 
reviewing agencies as to appropriate mitigation actions and the 
apparent lack of priority given to streamlining and expediting the 
environmental review process.

Other Examples Illustrate Similar Problems

    It should be noted that Memphis is not an isolated case. Phoenix, 
which opened a new runway in October of 2000, offers another example of 
the difficulties in getting critical runways built. After deciding on 
proceeding with construction of a third runway at the airport in 
September 1989, the EIS process began in May 1990. It wasn't until 
January 1994, however, that a ROD was issued due in large part to the 
same sort of delays that plagued Memphis. Litigation, another common 
cause of delay, followed the release of the ROD further delaying 
construction.
    Orlando is expected to complete a new runway in 2003, some 15 years 
after the project was approved by the FAA and the Airport Authority. 
Again, permitting and study activities consumed an inordinate amount of 
time before construction ever started. Detroit added one runway in 1993 
and will complete another in December 2001. In both instances, the 
projects will have taken 8 to 10 years.

Streamlining the Environmental Review Process

    With flight delays and growing concern about system gridlock and 
with critical runway projects planned at key airports including 
Detroit, Minneapolis, Orlando, Denver, Houston, Miami, Charlotte, 
Atlanta, Boston, Cincinnati, Washington Dulles, Seattle, St. Louis and 
Dallas/Fort Worth, it has never been more important to ensure the 
efficiency and effectiveness of the airport project review process.
    AAAE and ACI-NA have developed several proposals to improve the 
environmental approval process for projects that would enhance capacity 
and reduce delay at the Nation's busiest airports. We have worked with 
environmental, airport planning and development professionals; key FAA 
staff; and environmental and aviation law experts. Our goal is to 
expedite the process by which airport operators, and Federal and State 
regulators and environmental agencies review and approve critical 
airport projects.
    The Expedited Airport System Enhancement (EASE) initiative (copy 
attached) would give priority to critical airport capacity projects 
within the scope of existing environmental laws and better integrate 
application of those laws into the process for approving such projects. 
EASE also seeks to improve procedures at FAA and elsewhere in the 
Federal Government to make sure that these critical projects receive 
prompt and informed attention.
    Key provisions of the proposal include the declaration of 
``Critical National Airport Capacity'' Projects, which would eliminate 
the need for the lengthy off-airport ``alternatives'' process for such 
projects; priority processing by involved agencies of Critical Airport 
Capacity Projects; the establishment of an Airspace System Capacity 
Enhancement Council or Czar; airport funding of project-specific FAA 
staff or consultants for expedited review of Critical Airport Capacity 
Projects; the expansion of categorical exclusions; the facilitation of 
agreements with local governments to allow additional mitigation for 
Critical Airport Capacity Projects; the requirement of realistic State 
air quality implementation plans; and elimination of the duplicative 
Governor's Certificate.

Conclusion

    Although the causes of airline delays are complex, it is clear that 
adding runway capacity remains a key challenge. In light of the current 
volume of travel and the projected growth within the next decade, we 
cannot afford to allow critical capacity enhancing projects such as 
runway construction at major airports to become mired in an unending 
process that produces no measurable environmental benefit.
    Enactment of a few common-sense procedural changes can make a 
difference in ensuring that critical projects currently under 
consideration move forward responsibly and with appropriate 
environmentally sensitivity. Success in this regard will produce 
profound results throughout the aviation system.
    Bringing additional runways on-line is time to meet the billion 
passengers that the system will face by the end of the decade is 
critical not only for aviation but also for our whole economy. 
Expedited runway construction combined with ongoing efforts to 
modernize the tools to manage air traffic control can go a long way 
toward reducing airline delays and the accompanying frustration, 
inconvenience and lost time and productivity.
    We look forward to working with you, Senator Hutchison, as well as 
Senator Rockefeller and other Members of the Subcommittee to bring 
about needed reform of this process. Thank you again for the 
opportunity to testify.
                                 ______
                                 

EASE Proposal

    Note: All of these proposed measures would be limited to ``Critical 
National Airport Capacity Projects'' at a small number of specifically 
designated airports where delays have serious impacts on the national 
air transportation system. They would not change the environmental 
review process or any other laws or procedures with respect to other 
projects or other airports. Although limited in scope, these changes 
would produce profound benefits throughout the Nation.

<bullet> Declaration of ``Critical National Airport Capacity'' Projects

    Proposal: FAA shall establish a threshold of total annual hours of 
delay at the most delay-prone airports. Upon application by the sponsor 
of an airport having greater than the threshold amount of delay 
established by FAA, the Administrator shall designate the project at 
that airport as a Critical National Airport Capacity Project. In 
legislation, Congress would determine that, at such airports there is 
no alternative to a Critical National Airport Capacity Project that is 
consistent with the needs of the national air transportation system; 
and, Congress shall declare that no alternative other than a project at 
that same airport that contemporaneously produces equal or greater 
capacity is reasonable, prudent, feasible or possible for purposes of 
the Airport and Airways Improvement Act and Federal environmental 
review laws.
    The legislation would mandate that the FAA and all other Federal 
agencies would be required to accept that finding as conclusive. 
Airports would be included only with their consent and could 
subsequently opt out of the designation.
    Explanation: Under existing laws, the FAA and other agencies must 
determine whether a reasonable alternative exists to a proposed 
capacity project. This part of the Alternatives Analysis consumes time, 
money, and effort even when there is no reasonable alternative. The 
effect of a congressional declaration would be to avoid the delay 
caused by consideration of off-airport alternatives. This proposal, if 
enacted, would be a legislative determination that these other off-
airport alternatives cannot possibly solve the Nation's airport 
capacity problems. A side benefit would be to focus analysis on ways to 
minimize potential adverse environmental impacts through project design 
and mitigation. It is estimated that approximately 10-15 airport 
projects would qualify for designation as Critical National Airport 
Capacity Projects.

<bullet> Priority Processing By All Agencies of Critical Airport 
                    Capacity Projects

    Proposal: Require by law or executive order that FAA and all other 
agencies conduct environmental reviews of Critical National Airport 
Capacity Projects on a ``highest priority'' basis.
    Explanation: Much of the delay in environmental processing occurs 
outside the FAA, at other agencies. Although proper review by those 
agencies may take some time, this proposal would ensure that no 
additional time is lost while the proposal awaits the agencies' 
attention. The Executive Order implementing this initiative would 
compel the agencies to provide adequate staffing and funding to insure 
compliance with the existing CEQ-established deadlines.

<bullet> Airspace System Capacity Enhancement Council/Czar

    Proposal: Create a Council/Czar appointed by and reporting directly 
to the President to coordinate review of Federal agency actions as they 
affect capacity enhancement and environmental review.
    Explanation: The Council/Czar would be responsible for examining 
and addressing any aspect of the system that impedes the volume of air 
traffic. It could be granted the authority to exempt projects from 
environmental and other regulations that are unnecessarily hindering 
capacity enhancement; or, the Council/Czar could simply facilitate 
coordination with the Secretaries of Transportation, Interior, 
Commerce, State and Defense, as well as with the Administrator of EPA, 
with the Chair of the Council on Environmental Quality and with the 
Governors. It is important, however, that such a Council not be simply 
another level of review, with boxes to be checked, and reviewers to be 
staffed.

<bullet> Airport Funding of Project-Specific Additional FAA Staff or 
                    Consultants for Expedited Review of Critical 
                    Airport Capacity Projects

    Proposal: By law, Executive Order, or FAA action, allow airports to 
provide funds to FAA to hire additional, project-specific staff to 
supervise and implement reviews of Critical National Airport Capacity 
Projects. The additional staff would work exclusively under FAA's 
supervision and would have no obligation to the airport.
    Explanation: FAA faces serious resource limitations with 
environmental processing. This proposal would allow the addition of 
staff for the most difficult and critical projects without increasing 
FAA's permanent headcount. This is solely a funding mechanism to allow 
the airports (and through them, the airports' users) to pay the cost of 
accelerating project reviews.

<bullet> Categorical Exclusions Expansion

    Proposal: By law, Executive Order, or FAA action, direct FAA to 
institute national procedures for excluding specific airport project 
actions from NEPA review.
    Explanation: Categorical exclusions, as currently outlined in FAA 
Order 5050.4, constitute a successful FAA review tool that ensures 
compliance with environmental regulations while expediting agency 
review. Many, if not most major airport projects, receive approval for 
categorically excluded elements of the project. While extraordinary 
circumstances and controversy can and do prevent a specific project 
category from being universally excluded, apron expansions, taxiway 
expansions, and other capacity enhancing project elements are 
customarily approved. Legislative expansion would formalize consistent 
application of NEPA that allows specific categories of a project to be 
excluded from review based on historical impact findings.

<bullet> Facilitation of Agreements with Local Governments to Allow 
                    Additional Mitigation for Critical Airport Capacity 
                    Projects

    Proposal: Legislation which would allow directed interpretations of 
policies on revenue diversion and use of passenger facility charges, 
noise and access restrictions for Critical National Airport Capacity 
Projects to improve mitigation of environmental impacts. Encourage FAA 
to agree to enforceable limits on new runways, where necessary, to 
ensure timely approval of Critical National Airport Capacity Projects.
    <bullet> Local airport funds could be used to reach practical 
mitigation agreements with nearby communities, even if not 
traditionally permitted under existing rules on revenue diversion and 
PFC use. This would be tightly controlled to prevent local governments 
from holding projects hostage until a ``ransom'' unrelated to the 
project impacts is paid. There should be a nexus between the to-be-
funded project and the airport runway (Note: the implementing statute 
would acknowledge that these local communities bear a significant 
impact on the national need for aviation capacity and therefore, this 
unique exception for the ``revenue diversion'' restriction may be 
justified. This cannot be cited as a precedent for non-critical airport 
capacity projects).
    <bullet> FAA would be directed to make binding commitments with 
respect to air space management, runway use, or other operational 
conditions for Critical National Airport Capacity Projects, where 
reasonable, and subject to findings that the limitations do not 
substantially interfere with air traffic efficiency and safety.
    <bullet> FAA would be authorized to approve noise or access 
restrictions on use of a new runway which is designated as a Critical 
National Airport Capacity Project without further compliance with the 
procedures under the Airport Noise and Capacity Act (ANCA), where such 
restrictions are fully evaluated in the EIS for capacity improvement, 
costs and benefits, preservation of at least the existing level of 
access, where the projects are deemed necessary to avoid delay in 
project approval/construction and authorized in the Record of Decision.
    Explanation: Agreements with local governments surrounding an 
airport can remove or reduce opposition to a project, saving time and 
reducing the risk that the project will not be approved. However, those 
agreements sometimes require funding for purposes not currently 
approved for use of airport revenues, either because of the application 
of anti-diversion rules or limits on PFC eligibility. The expansion of 
mitigation would be limited, to preclude payment of cash bounties or 
funding of unrelated development that a community desires. Rather, the 
new authority would cover only costs of reasonable, project-related 
impacts (as determined by FAA), that go beyond current funding 
standards. Such expanded funding could include, for example, mitigation 
of traffic impacts on nearby, non-exclusive airport access roads or 
repairing building code deficiencies that would otherwise make 
soundproofing schools or homes ineligible for Federal funding.
    Some projects would be easier and faster to build if communities 
could be assured that use of the new runway will be consistent with the 
assumptions built into the environmental processing (for example, time-
of-day and directional limitations, limits on use for departures) but 
FAA historically has not been willing to give such commitments. 
Similarly, for those restrictions that might, theoretically, be 
achievable through an ANCA/Part 161 process, that process may cause 
added, redundant delay through review of the restriction. FAA has been 
unwilling to approve any actions under Part 161. In essence, the 
proposals relating to potential restrictions on new runway use 
recognize that it may be better to obtain, in a timely manner, a 
capacity benefit that may be less than a project's full physical 
capacity, rather than to hold out for an unrestricted project that may 
be inordinately delayed or never achieved.

<bullet> Require Realistic State Air Quality Implementation Plans

    Proposal: Require State Implementation Plan (SIP) inventories to be 
revised within 180 days of enactment of legislation to base air quality 
emissions inventories at airports having Critical National Airport 
Capacity Projects upon FAA's Terminal Area Forecast for that airport, 
or an alternate forecast approved by FAA.
    Explanation: If a region does not meet national ambient air quality 
standards, the State is required to prepare a State implementation plan 
(SIP), that regulates emission sources. The Clean Air Act prohibits FAA 
from approving an airport project if it will interfere with the SIP. If 
the SIP already includes an allowance for the project, this process is 
simple and causes no delay. If the SIP does not include such an 
allowance, months or years can be lost collecting and analyzing data, 
and negotiating with air quality agencies. Many SIPs contain 
unrealistically low airport emissions budgets, and few realistically 
anticipate reasonable airport growth. Mandatory SIP revisions that 
realistically account for airport activity would eliminate this major 
source of delay and risk.

<bullet> Eliminate Requirement under Sec. 49 USC 47106(c)(1)(B) for 
                    Governor's 
                    Certificate

    Proposal: Eliminate, in its entirety, the requirement that each 
State certify that federally funded airport projects comply with 
applicable air and water quality standards.
    Explanation: This certificate requirement, contained in the Airport 
and Airway Improvement Act, duplicates existing compliance and 
conformity rules under the Clean Air Act and Clean Water Act.

[GRAPHIC] [TIFF OMITTED] T8035.001

[GRAPHIC] [TIFF OMITTED] T8035.002

[GRAPHIC] [TIFF OMITTED] T8035.003

    Senator Hutchison. Thank you, Mr. Barclay.
    Ms. Deborah McElroy, the President of the Regional Airline 
Association.

 STATEMENT OF DEBORAH C. McELROY, PRESIDENT, REGIONAL AIRLINE 
                          ASSOCIATION

    Ms. McElroy. Thank you, Madam Chairwoman, Senator 
Rockefeller, and Members of the Subcommittee. We appreciate the 
opportunity to present our views on this critical issue. RAA 
has 52 members, and they carried 95 percent of the regional 
airline passengers last year. Our members serve 442 commercial 
airports in the Lower 48 States, and at 271 of these airports 
we provide the only scheduled airline service.
    Last year, we carried 85 million passengers, which means 1 
in 8 domestic passengers flew on a regional airline. FAA and 
industry projections indicate that over the next 5 years, 
passenger enplanements will increase to 117 million.
    I am sure it is no surprise to any of you that airport 
access our top concern. Without it, our ability to grow will be 
limited, and regional jet and turboprop service to small 
communities could be reduced or eliminated. We know there are 
no easy solutions to the problems causing airport delays. 
However, we oppose the approach under discussion that will add 
large premiums for landing during peak hour times.
    Proponents acknowledge its objectives is to force airlines 
to spread out their flights and to encourage use of larger 
airplanes. This will seriously impact air travelers in smaller 
communities which, given the size of their markets, are 
generally unable to support service by larger aircraft. Because 
congestion pricing mechanisms mean significantly higher landing 
fees, the airlines will be forced to raise fares in these 
markets.
    The burden of this approach falls squarely on citizens 
residing in small communities, as they are far less likely to 
have the passenger base to absorb the higher fares. Ultimately, 
such a pricing mechanism could lead to reduction or elimination 
of air service, which again is of critical concern for those 
271 communities that depend on regional airline service.
    Proponents also suggest that congestion pricing will force 
smaller carriers to use alternative airports. However, this 
approach fails to recognize the role regional airlines play in 
the aviation infrastructure. We bring passengers from the small 
communities to the hubs and to the large cities. Relegating us 
to alternative airports allows a fundamental disconnect between 
regional airlines and their major partners.
    While congestion pricing seems to offer immediate relief, 
implementation of demand management schemes will do nothing to 
resolve the underlying systemic problem of inadequate airport 
capacity. It runs counter to the leadership this Subcommittee 
and your colleagues in the House showed in passing the Wendell 
Ford Aviation Improvement Reform Act.
    FAIR 21 was designed to increase access and competition 
through the entire aviation sector. Demand management will only 
stay its momentum by reducing the incentive for FAA in some 
airports to undertake vital capacity improvements.
    At its root, congestion pricing offers a quick, short-term 
fix to a long-term complicated problem. The problem is that 
capacity is not going as fast as demand, and we appreciate the 
approaches that you have taken in this bill to resolve that 
issue. We understand that airport capacity is difficult, and 
one of the biggest problems lies in the environmental process.
    We wholeheartedly support the efforts to streamline and 
facilitate the needed procedures. Congress should also consider 
requiring State air quality implementation plans to allow for 
realistic airport growth. Likewise, the FAA should identify 
airports where environmental reviews are blocking critical 
access to the system and grant them priority within the scope 
of the current law, so these critical expansion projects 
receive prompt attention.
    We recognize that airlines have a role to play as well. 
Already, as I am sure you know, several major airlines have 
adjusted the schedule of their largest airports, including the 
schedules of their regional partners. We are also looking 
forward to the FAA's benchmark study. This will provide 
additional efforts to help facilitate these movements by the 
carriers.
    We also believe that proposals creating limited antitrust 
access to airlines seeking to address congestion deserves 
consideration. While airline scheduling adjustments and 
environmental streamlining are important efforts in increasing 
delay, there is no silver bullet solution. Instead of seeking a 
quick fix, all sectors of the aviation community must work 
together to make incremental capacity enhancements, and look at 
other technology such as that proposed by the FAA with new air 
traffic controller tools which will simultaneously improve 
safety and efficiency in the management of aircraft.
    Well-timed and affordable access to airline service is 
essential for the economic viability of small and medium-sized 
communities. It is their air travelers who seek to optimize 
their business day by traveling at times that are most cost-
effective or convenient. Air travelers demand frequency, 
convenience, and choice from regional airlines whether they 
live in Pittsburgh or Peoria. It is unfair to constrain either 
of these elements due to coincidence of location. All 
communities have a fundamental right to equal access to the air 
transportation network, and congestion pricing promises to 
violate that right.
    Thank you very much, and I will look forward to the 
opportunity to answer questions.
    [The prepared statement of Ms. McElroy follows:]

         Prepared Statement of Deborah C. McElroy, President, 
                      Regional Airline Association

    Good morning, Madam Chairwoman, Senator Rockefeller, and 
distinguished Members of the Subcommittee. Thank you for providing this 
opportunity to comment on potential solutions to the issues of aviation 
congestion and delay.

Background

    I am President of the Regional Airline Association, a trade 
association representing 52 regional airlines in the United States. 
Regional airlines operate short and medium-haul scheduled airline 
service linking smaller communities with larger cities and connecting 
hubs, operating modern and technically advanced turboprop and regional 
jet aircraft. RAA member airlines carried over 95 percent of the 
regional airline passengers in the United States last year.
    Today, regional carriers serve 442 commercial airports in the Lower 
48 States, and at 271 of these airports, regional carriers provide the 
sole source of scheduled air service. Regional airlines are growing at 
impressive rates; in fact, we're the test wing segment of commercial 
aviation. In the year 2000, regional airlines carried 85 million 
passengers, which means that approximately 1 out of every 8 domestic 
passengers traveled on a regional carrier.
    FAA and numerous industry analysts have predicted that we're going 
to keep growing, and within the next 5 years, passenger enplanements 
are projected to exceed 117 million. This growth in our industry will 
mark an improvement in our Nation's air transportation system overall, 
as many communities reap the benefits of increased access to the 
national air transportation network. Likewise, the growth will be good 
for our 52 airline members, for their employees, and for the economic 
viability of small and medium-sized communities across the Nation as 
our industry becomes stronger still.
    As a by-product of our growth, regional jets, commonly referred to 
as RJs, are comprising more and more of the regional airline fleet. By 
2005, we'll have more than 1,600 regional jets in service. While 
regional jets have performance capabilities similar to or, in some 
cases, better than their mainline narrow-body counterparts, we will 
increasingly rely on ATC and airport expansion to accommodate our 
growing fleet.
    I'll take a moment, while discussing RJ growth, to talk about 
turboprops. Despite what you hear from some industry analysts, 
turboprops will remain an integral part of regional airline service for 
the foreseeable future. Because of higher operating costs and fuel 
issues, regional jets are inefficient on short-haul routes under 350 
miles. This means that turboprops are still the only viable option for 
communities too small or too close to a large airport to support RJ 
service. Nonetheless, RJs are becoming a staple of regional air 
service, and may represent over 50 percent of the regional fleet and 
carry 70 percent of our passengers by 2005.

Impact of Growth

    Along with the positive impacts of this growth, we see storm clouds 
on the horizon. Airport access is our top concern. Without it, our 
ability to grow will be limited, and regional jet and turboprop service 
to small communities could be reduced or even eliminated.
    The problem, as we all know, is congestion. Demand for air travel 
is currently pushing the limits of supply, and we take this problem 
very seriously because airport congestion and subsequent delays are 
making air travel an increasingly frustrating experience for our 
passengers and their employees.
    As Congress, the FAA, airlines, airports, and the Nation at large 
struggle to find answers to aviation delays, we welcome the opportunity 
to testify on this issue because we believe we can be part of the 
solution. Still, we know that the path to resolution will not be an 
easy one.
    Federal policymakers and officials at some of the Nation's busiest 
airports have suggested a controversial response to aviation gridlock: 
hefty premiums for landing during peak travel hours. RAA opposes this 
approach because it carries with it adverse economic consequences for 
small and medium-sized communities. The fallout inherent to such an 
approach could prove fatal to small community air service in every 
State.
    Most proponents of congestion pricing acknowledge its' objective is 
to force airlines to spread out their flights and encourage a return to 
bigger planes, thereby easing congestion by managing demand. The most 
immediate problem with this approach is its serious, immediate, and 
potentially irreparable impact on air travelers in smaller communities. 
The smaller aircraft that proponents of a demand-management approach 
would seek to consign are the very same regional carriers that serve 
small and medium-sized communities across the Nation; communities with 
little or--in the cases of 271 airports served exclusively by regional 
carriers--no other air-travel options.
    Because congestion pricing mechanisms means higher landing fees, an 
airline would have to pass these charges along to passengers in the 
form of higher fares in order to remain competitive. The burden of this 
approach falls squarely on citizens residing in small communities. 
Airlines serving smaller communities with regional aircraft are far 
less likely to have the passenger base to absorb higher fees consequent 
to congestion pricing.
    Ultimately, such a pricing mechanism could lead to reduction or 
elimination of air service if increased fares result in significantly 
decreased traffic. Rather than embark upon the fool's errand of 
offering such service, most regional airlines would be forced to 
operate at off-peak hours or not at all, thereby relegating passengers 
traveling to and from smaller communities to the least convenient form 
of air transport. And when passengers have to travel at inconvenient 
times, they lose the ability to conveniently connect to a major airline 
as they continue the journey, inviting additional overnight stays to 
their trip at significant costs.
    Proponents suggest that congestion pricing will force smaller 
carriers to use alternate airports, allowing more access for the big 
jets. Airports adopting this approach fail to recognize the role 
regionals play in the aviation infrastructure: We feed the hubs. 
Relegating us to alternate airports allows a fundamental disconnect 
between regionals and their major partners. Elimination of hub-feeding 
regional service would have sweeping, negative impacts on the air 
transportation infrastructure as a whole, as mainline passengers 
already shouldering congestion fees would likely see further fare 
increases as the passenger base decreases with regional airline 
passengers traveling.
    Disenfranchising small and medium-sized communities from the 
national transportation system is not an appropriate response to 
congestion and delay.
    While congestion pricing seems to offer immediate relief, 
implementation of demand management schemes will do nothing to resolve 
the underlying, systemic problem of inadequate airport capacity. 
Further, RAA believes strongly that congestion pricing runs counter to 
the tremendous leadership this committee and your colleagues in the 
House offered in passing the Wendell Ford Aviation Improvement Reform 
Act last year, laying the groundwork for building and maintaining a 
healthy and vibrant national air transportation system. If FAIR-21 was 
designed to increase access and competition throughout the entire 
aviation sector, demand management will surely stay its momentum by 
reducing the incentive for FAA and some airports to undertake vital 
capacity enhancement projects. Instead, airports managing demand might 
squeeze by for several more years without pouring concrete.
    At its root, congestion pricing offers a quick, short-term fix to a 
long-term, complicated problem. The problem is that capacity is not 
growing as fast as demand. And in the long term, this problem must be 
addressed through expansion of the system.

Addressing Capacity Constraints

    Congress showed leadership last year, by providing the funding 
necessary for airports to build new runways and enhance existing ones. 
This means that the ability for airports to meet increased demand will 
be enhanced, in some fortunate circumstances, by the construction of 
additional runways and other physical adjustments to airport runway and 
taxiway layouts.
    We understand that undertaking airport expansion can be difficult 
and often politically contentious. One of the biggest challenges to 
expansion lies in the slow pace of identifying the environmental 
safeguards that need to accompany such expansion. Because environmental 
protections are so important, RAA is pleased that many airports around 
the country demonstrating heightened environmental sensitivity by 
hiring specialists to design environmentally friendly airport 
improvement projects. This heightened environmental sensitivity makes 
it possible to expedite the environmental review process without 
relaxing even slightly our national agenda of environmental progress.
    That is why we wholeheartedly support efforts to streamline and 
facilitate the National Environmental Policy Act (NEPA) procedures, so 
that environmental reviews at the State and local and the Federal level 
can be done concurrently, not consecutively. Congress should consider 
requiring State air quality implementation plans to allow for realistic 
airport growth. Likewise, the FAA should identify airports where 
congestion is blocking critical access to the system and help those 
airports take action to alleviate the problem. These airports should be 
granted priority status within the scope of the current law so that 
these critical expansion projects receive prompt and informed 
attention. Congress should also consider exempting certain projects at 
those airports from NEPA review.
    We are looking forward to seeing the results of the FAA's 
benchmarking report in the next few months. For airports that have 
exceeded the FAA-declared threshold on total annual hours of delay, 
Congress should dispense with the current system of considering off-
airport alternatives, because such off-airport alternatives cannot 
possibly solve the Nation's airport capacity problems and consideration 
of alternatives that do not exist only serves to build even more delay 
into the NEPA review process. Bearing in mind the importance of 
environmental protections, airports should continue to focus analysis 
on ways to minimize potential adverse environmental impacts through 
project design and mitigation.
     Airlines have a role to play, too. Already, larger carriers are 
independently looking at how they can adjust schedules--including those 
of their regional partners--to alleviate congestion and delay. As part 
of this process, RAA believes that proposals granting limited antitrust 
immunity to airlines seeking to address congestion deserves careful 
consideration.
    While airline scheduling adjustments and environmental streamlining 
are important efforts at easing delay, there is no silver-bullet 
solution. Instead of seeking a quick-fix, all sectors of the aviation 
community must work together to make incremental capacity enhancements, 
and we must continue to look at other solutions, such as new technology 
and air traffic controller ``tools,'' which will simultaneously improve 
safety and efficiency in the management of aircraft that are arriving, 
departing and taxiing at airports.

Conclusion

    In the 25 years that RAA has been representing regional carriers, 
we have often represented a dual constituency, and have often found 
ourselves one of the few voices of advocacy for small community air 
service. In this capacity we have met with many of you and we have met 
with the airport directors of many of these small communities. And the 
message has been clear: Well-timed and affordable access to airline 
service is essential to the economic viability of these communities.
    It is important to remember that peak demand periods of travel at 
airports are determined by air travelers who seek to optimize their 
business day or leisure travel by traveling at times that are most 
convenient. Air travelers demand frequency, convenience, and choice 
from airlines, whether they live in Pittsburgh or Peoria. It is not 
fair to constrain either of those service elements due to a coincidence 
of location. All communities have a fundamental right to equal access 
to the air transportation network, and congestion pricing promises to 
violate that right.
    Madam Chairwoman, this concludes my prepared statement before the 
Committee. I look forward to addressing questions that you or any 
Member may have. Because our very growth depends on it, the issue is an 
important one to us and I therefore welcome your comments and 
suggestions in addition to your questions, as we continue to seek 
solutions to the problem of congestion and delay.
    Thank you.

    Senator Hutchison. Mr. Ronald Swanda, the Vice President of 
Operations for the General Aviation Manufacturers Association. 
Welcome.

          STATEMENT OF RONALD SWANDA, VICE PRESIDENT-
          OPERATIONS, GENERAL AVIATION MANUFACTURERS 
                          ASSOCIATION

    Mr. Swanda. Good morning, and thank you, Madam Chairwoman 
and Ranking Member Rockefeller. It is a pleasure to be here 
today. I would like to submit my testimony and make just a 
couple of brief summary comments, because I know you have a lot 
of questions that we perhaps could answer for you.
    There is no doubt this is a timely and relevant hearing. 
Our Nation has clearly bumped up against the capacity of air 
traffic control system. Our whole air traffic transportation 
system demand has increased. We have a very important question 
before us today, and that is, should we manage that demand, or 
should we increase the capacity of our system. GAMA believes 
that the best solution is to increase capacity wherever we can.
    We are very pleased that the bill that is before you has 
some provisions that would improve the process for increasing 
system capacity, and we certainly support that. It is a clear 
sign that the Congress has chosen increasing capacity as the 
favorable solution. There are, however, other technologies and 
procedures that are important, as the Department of 
Transportation has noted.
    However, the Mitre Corporation believes that even if we did 
all of these technologies and procedures, it may only add as 
much as 5 to 15 percent into our capacity, so clearly, 
increasing airport capacity is also an important part of this, 
and it is very important that we make this a national priority.
    We have risen to these challenges before. We think that the 
country can certainly do it. AIR 21 has put many of the pieces 
in place to begin this already. However, as enthusiastic as we 
are about increasing capacity, we are also equally concerned 
about some of the proposals to manage demand. We agree, 
frankly, with Secretary Mineta that rationing demand is an 
admission of failure that harms the economy and traveling 
public when we ration demand. One way of managing demand is 
peak hour pricing. We are encouraged that it is not in this 
legislation.
    We oppose it because it basically would reregulate the 
industry. Admittedly, it is not the type of regulation that we 
had in 1978. However, it is insidious regulation, because it 
would determine the size and frequency of aircraft that operate 
at an airport. It would present the biggest detriment to small 
communities and midsize communities that general aviation 
serves. Many times, we provide the only access into the air 
transportation system for these areas.
    We recognize that some Members of this Subcommittee and 
others might think that some sort of reregulation is 
appropriate. However, peak hour pricing is reregulation with a 
twist, in that it does not actually improve service to small 
and medium-sized communities. It ends up limiting it, and we do 
not believe that that is the appropriate way to go.
    The large cities are points of commerce in our country, and 
it is general aviation combined with the commuter industry and 
the airline industry that provides access into these cities. If 
general aviation does not have access, then in order for 
business to transact its commerce it will have to be in the 
large cities, which would only add to many other problems that 
we have before us today in those areas.
    We are not concerned about access at these airports, 
because we are a large part of the traffic. In fact, in many 
cases we are only 4 to 5 percent of that, and believe me, the 
general aviation traffic, if they can, they would rather go 
somewhere else, and often do, and that is very positive. 
However, there are times when it is necessary to either connect 
with airlines or perhaps get service for aircraft, or other 
reasons such as medical deliveries, that general aviation has 
to be at these airports.
    We do think it is important to maintain some sort of 
reasonable access for general aviation into congested airports. 
We are not asking for additional slots, just reasonable access.
    Many studies available today show that at every airport in 
the Nation, there are times when there is unused capacity. 
Runways, in particular, are not constantly being used, so it 
makes sense to continue to accommodate reasonable access for 
general aviation.
    GA is a vital link for our air transportation system. I 
just want to leave you with the thought today that it is 
important to maintain our access to those airports.
    Thank you for the opportunity to speak with you.
    [The prepared statement of Mr. Swanda follows:]

    Prepared Statment of Ronald Swanda, Vice President-Operations, 
               General Aviation Manufacturers Association

    Madam Chairwoman, Senator Rockefeller, and Members of the 
Subcommittee, my name is Ron Swanda and I am Vice President-Operations 
of the General Aviation Manufacturers Association (GAMA). GAMA 
represents approximately 50 manufacturers of general aviation aircraft, 
engine, avionics and component parts located throughout the United 
States.

General Aviation

    As everyone on this Subcommittee well knows, general aviation is 
defined as all aviation other than commercial and military aviation. 
General aviation is the backbone of our air transportation system and 
the primary training ground for the commercial airline industry. It is 
also an industry that contributes significantly to our Nation's 
economy.
    General aviation aircraft range from small, single-engine planes to 
mid-size turboprops to the larger turbofans capable of flying non-stop 
from New York to Tokyo. These aircraft are used for everything from 
emergency medical evacuations to border patrols to fire fighting.
    They are also used by individuals, companies, State governments, 
universities and other interests to quickly and efficiently reach the 
more than 5000 small and rural communities in the United States that 
are not served by commercial airlines. General aviation allows these 
thousands of small communities to access the global marketplace.

Importance of Transportation

    I would like to thank the Subcommittee for holding today's hearing. 
It is timely and relevant.
    Madam Chairwoman, the quality of life of all Americans and strength 
of our Nation's economy is inextricably linked to our Nation's 
transportation system.
    There is nothing new in that statement. Economists and historians 
have long understood the connection between the quality of a Nation's 
transportation system and the strength of its economy. However, I think 
it is a statement worth making today because of the critical juncture 
at which we find ourselves with regard to our air transportation 
system.

Demand for Air Travel

    For the better part of the past decade, demand for air 
transportation in the United States has been growing at a remarkable 
rate. Since the early 1990s, the number of airline passengers has 
increased by approximately 40 percent and the number of freight ton-
miles flown has increased 90 percent. General aviation--which just a 
decade ago was in serious decline--has just posted its sixth straight 
year of growth.
    FAA projects that demand for air transportation will continue to 
grow well into the foreseeable future. What is uncertain, however, is 
whether or not our country will take the steps necessary to accommodate 
that demand.
    As everyone on this Subcommittee well knows, the growing demand for 
air transportation has clearly begun to run up against capacity 
constraints at a handful of airports in our national system. The delays 
created at those airports are having a significant ripple effect all 
across the United States.
    As a country, we now have to ask ourselves how we are going to 
respond to this situation.

Expanding Capacity

    Are we going to do what is necessary to increase capacity in order 
to safely meet demand, and thereby enjoy the benefits that come from a 
free flow of people, goods and services? Or are we going to constrain 
or manage demand, and hope that the techniques we employ do not do too 
much harm?
    The General Aviation Manufacturers Association is pleased that 
legislation we are discussing today includes a provision to implement 
an expedited coordinated environmental review process for airport 
capacity-enhancement projects. We view that provision as a sign that 
Congress is interested in expanding capacity to meet demand, and there 
is certainly no more effective way to do that than building new runways 
at capacity constrained airports.
    As you know, new technologies and new procedures are being 
developed that can increase system efficiency. GPS, Datalink, ADS-B and 
WAAS/LAAS can be very helpful in our efforts to increase capacity. All 
of these technologies are important building blocks for improving our 
evolving air system. We hope that they will be certified in the very 
near future. However, we should be careful not to raise expectations 
for technological solutions beyond what they can deliver.
    Mitre, NASA, and other technical organizations have reviewed all of 
the capacity-enhancing technologies and procedures that are on the 
drawing board and have concluded that the cumulative effect of fielding 
all of these technologies would increase capacity by roughly 5 to 15 
percent. Now a 5 to 15 percent increase in capacity is important and 
should be vigorously pursued. However, it is not enough to enable us to 
meet the growing demand for air transportation. That will take a much 
greater effort by all of us.

Set a Capacity Goal

    Increasing the capacity of our Nation's air transportation system 
must be made a national priority. We need to set a goal for increasing 
capacity over a finite period of time and develop a plan for attaining 
it.
    The United States has a proven record of rising to the challenge 
when the goal is clearly defined. Remember that 40 years ago we set out 
to put a man on the Moon and we accomplished the task in less than 10 
years. If we could do that then, we can no doubt meet the challenge the 
traveling public is presenting to us today--we can increase capacity of 
our air transportation system to safely meet demand.
    Congress has already provided important tools in this regard. AIR 
21 substantially increased AIP funding and made significant changes in 
the managerial structure of the FAA. Now we must make a national 
commitment to using those tools to keep the U.S. air transportation 
system the largest, safest and most efficient in the world.

Rationing Demand

    As much as GAMA supports efforts to increase capacity, it is 
concerned about ideas that seek to constrain or manage demand.
    We agree with Transportation Secretary Norm Mineta who has called 
demand management ``an admission of failure that harms the economy and 
the traveling public.'' One particular method of constraining or 
managing demand is what is known as peak hour pricing. Under this form 
of demand management, busy airports would be allowed to charge 
exorbitant landing fees on a per aircraft basis.
    GAMA opposes peak hour pricing for a variety of reasons, not the 
least of which is that it represents government reregulation of air 
transportation. By allowing peak hour pricing at certain airports, the 
U.S. Government would once again be sanctioning a system for 
artificially determining what cities get service and what type of 
airplanes will be used to provide that service.
    Under peak hour pricing, the government's control over air 
transportation might not be quite as direct as it was prior to 1978 
when it set specific rates and schedules. But it is clear that peak 
hour pricing would effectively eliminate service to small communities 
by pricing general aviation and commuter airlines out of those markets. 
New entrant carriers would also suffer because they could not absorb 
the exorbitant landing fees over a broad network of operations. Even 
the major carriers would find that the system forces them to use larger 
planes than market conditions would otherwise warrant.
    We recognize that some Members of this Subcommittee support the 
idea of government reregulation of air transportation. However, our 
understanding is that their reason for supporting reregulation is so 
that service to small markets might be improved.
    The irony of peak hour pricing is that it is government 
reregulation but with a twist. It is government reregulation that 
eliminates--rather than improves--service to small and rural 
communities.
    The fact that peak hour pricing favors service to and from only 
those large markets that can support big jets full of people means that 
businesses that need to reach major cities will themselves need to be 
located in one. As a result, sprawl and the other problems associated 
with our Nation's biggest cities will be exacerbated rather than 
reduced. And the promise that advances in telecommunication technology 
once held for our Nation's smaller communities will be dashed because 
quality air service will not exist.
    There is also a question as to what an airport will do with the 
fees it raises. Will it invest in new runways to eventually meet demand 
and thereby eliminate the need for peak hour fees? Or will it use the 
largess it receives from not meeting demand to simply gold plate its 
facilities for those big city passengers who can afford service?
    The general aviation community is not concerned about peak hour 
pricing or other demand management ideas because we have a large number 
of airplanes going into the busiest airports--we don't. In fact, 
general aviation makes up less than 4 percent of the traffic at the 
five busiest airports. We prefer to use reliever airports when they are 
a practical alternative.
    Moreover, what little general aviation there is at the major 
airports often does not arrive or depart at the same time as the 
airline banks. And, in places like Reagan National Airport, we use 
runways that are not long enough to handle the traffic from the major 
airlines.
    Still, we think it is important for general aviation to have at 
least some reasonable level of access to commercial airports. General 
aviation is used by companies and individuals in small and rural 
communities to reach big cities or to connect with the passenger 
airlines. DOT studies show that every airport in the United States has 
at least some unused capacity every day. With that being the case, what 
is wrong with general aviation turning that unused capacity into 
important air service?
    General aviation also feels it is important that we maintain a 
reasonable level of access to the commercial airports because our 
Nation's system of reliever airports is, in some areas, under attack. 
Examples include Chicago's Meigs Field, where this important downtown 
airport is slated to be turned into a park next year. And in Denver, an 
apartment complex was just built at the end of a runway of one the 
country's busiest general aviation airports.

Conclusion

    Madam Chairwoman, as I said at the beginning of my testimony, 
general aviation is a vital link in our Nation's air transportation 
system and an important engine for our Nation's economy. As such we are 
anxious to work with the Subcommittee on efforts that will keep the 
United States the world leader in all aspects of aviation now and in 
the future.
    Growth in demand for air transportation has brought us to a 
critical juncture in our Nation's aviation history. We hope that 
Congress will take this opportunity to commit our country to expanding 
our air transportation infrastructure to meet the demand of its 
citizens. We stand ready to assist in that effort and look forward to 
working with you and the other Members of this Subcommittee to do just 
that.

    Senator Hutchison. Thank you, Mr. Swanda.
    Well, I want to thank all of you. I think you have added a 
lot to the body of our knowledge.
    I want to start questioning with you, Ms. McDermott. We 
have all talked about the environmental reviews running 
concurrently, and I just want to ask why the Department of 
Transportation has never done this before, on its own?
    Ms. McDermott. Where we are at the moment is that we have 
heard this very loud and clear. In AIR 21, the FAA was 
instructed to look at ways to streamline the environmental 
review process, and it is concluding its late report very 
shortly, perhaps in late April, and we will use this report, as 
I noted earlier, as a basis for discussion.
    Senator Hutchison. Do you think you need congressional 
authority to do that?
    Ms. McDermott. To streamline environmental review?
    Senator Hutchison. Yes.
    Ms. McDermott. It will depend on how the State 
environmental reviews will compare with the Federal statutes. 
When the FAA finishes the streamlining review, we will have a 
clear recommendation as to whether additional authority will be 
needed.
    Senator Hutchison. So you need the authority to coordinate 
with the States?
    Ms. McDermott. That is correct.
    Senator Hutchison. All right.
    Let me ask Mr. Fegan, and perhaps Mr. Barclay if you have 
something to add to this. All of us have been talking about 
environmental reviews that cause the delays when they run one 
after another, but there are also the lawsuits. There is a 
strict requirement for a Federal lawsuit to be brought 60 days 
after the final review, but we have not talked about State 
lawsuits. I just want to ask if you think that this should be 
addressed as well?
    Obviously, we cannot require an end to a process, but we 
can certainly require an end to the beginning of a legal 
process. That is, if you think an end would add to the 
expediting of the procedures, or are State lawsuits not the 
real cause of the delay problem?
    Mr. Fegan. Madam Chairwoman, I am probably speaking on a 
topic that I am not an expert on. In our last process we went 
through, in terms of DFWs EIS and the legal challenges, I am 
not aware of any State lawsuits that were filed. It was mostly 
on the Federal level, and I guess we also had somewhat of an 
issue related to zoning authority, which was a State issue. But 
I certainly think that that would go a long way to make sure we 
understand all the issues out there by requiring that those 
lawsuits are filed within a certain amount of time. I think it 
would be very helpful.
    Senator Hutchison. Is there anyone else that has had 
experience with the State lawsuits, and whether that is also a 
problem?
    Mr. Barclay. We can find that and provide it for the 
Subcommittee, Madam Chairwoman. I do think you should worry 
about that in crafting a legislative response, but the low-
hanging fruit here is, as we point out in our testimony, there 
are 14 major airports that have runway projects that have gone 
through their local process and are somewhere in the Federal 
process. We have got the example of Memphis, which had no local 
opposition whatsoever, and it took them 16 years to complete 
their runway project.
    Senator Hutchison. So then, the problem is mostly 
environmental reviews?
    Mr. Barclay. Yes, and a variety. DOT has trouble doing this 
on their own, when the Corps of Engineers is involved, CEQ, a 
variety of Federal agencies need to be incorporated, and 
depending on the State you are in you can also have a variety 
of State agencies to be coordinated, so national legislation 
that considers all of those players and puts a deadline on 
their reviews would be extremely useful.
    Senator Hutchison. Mr. Fegan, you mentioned a revalidation 
process. You have already received your environmental impact 
statement for another runway, but even though it has been 
approved once, you are still trying to put that runway in 
place. What is the revalidation process, and why are you having 
to do that?
    Mr. Fegan. Well, when we received our record of decision on 
our two new runways the record of decision basically stated 
that a revalidation process would have to be done for the 
eighth runway, since the eighth runway was going to take place 
later in the future. The revalidation process, we understand, 
is a process by which the project does not change, or if the 
assumptions that went into the assumptions do not change 
substantially, you go through that process of looking at all 
the environmental impacts, and then comparing it back to what 
was stated in the earlier documents.
    I think, though, that considering the potential controversy 
over runway development as well as some of the changes that 
have taken place, such as the changes in the fleet mix and 
things along those lines, I would expect that this revalidation 
process will be very similar, if not identical to a full-blown 
environmental impact statement.
    Senator Hutchison. How long would it take, normally?
    Mr. Fegan. Well, I think the technical analysis required to 
draft the document probably is about a year to 18 months, and 
then the review process really starts after that, and that 
could take another 18 months or longer.
    Senator Hutchison. So you are talking about possibly two 
18-month periods or longer for something that has already been 
done once?
    Mr. Fegan. That is possible. I expect at least a year on 
the document, and probably another year to 18 months on review, 
I would expect.
    Senator Hutchison. Mr. Rockefeller.
    Senator Rockefeller. Thank you, Madam Chairwoman.
    If we agree that about 1 in 4 flights are being delayed, 
which you all have, and if we agree that a lot of that takes 
place in New York, and Jane Garvey recently had to do a lot of 
cutting back on her own there, how do you do congestion, and 
work with antitrust immunity?
    In 1978, in the JFK-Los Angeles market, we had 13 flights 
daily that had 5,035 seats, and today, 23 years later, we have 
27 flights JFK to Los Angeles, which is 107 percent increase in 
non-stop flights, but actually fewer seats being used. Now, 
that obviously creates the possibility of something that 
worries me very much, and that is the shutting down of service 
slots, aircraft, et cetera, to small communities.
    If we give carriers antitrust immunity, is it possible that 
we will see carriers use larger aircraft in these types of 
markets which would then in turn presumably, mathematically 
free up more flights to small communities, of which there are 
hundreds and hundreds in this country. Chip, Ms. McElroy, or 
anybody who wants to comment, I would be interested in your 
views.
    Mr. Merlis. Well, I will comment, sir. I think you pointed 
out what part of the problem is. If you do not have any 
guideposts in this antitrust immunity as to what is 
anticipated, then you might not get the result you like. 
Alternatively, you might get the result that you like. I mean, 
the airlines could theoretically, as part of that process, 
upgauge, and instead of having, what was it--27 flights, you 
have 13 flights a day in wide-bodies, freeing up some space.
    But then, along comes an airline that never participated in 
this antitrust review and says, ``I want to fly that market,'' 
and it picks hours of the day when the other carriers who have 
participated are not flying, and they are harmed by having 
agreed to up gauging.
    It is a very sensitive and difficult issue to do without 
having specific guideposts.
    Mr. Barclay. I think you have pointed out one of many 
potential outcomes of that kind of meeting. I am no expert in 
this area, but I would suggest the Subcommittee might look at 
the history of antitrust immunity for slot committees which did 
occur at both National and LaGuardia in the past, and it is my 
understanding that they would have the Government in the room 
with them--so it was not behind closed doors alone.
    It is my understanding that those worked for a number of 
years while things were very stable, and there were not new 
entrants that wanted to come into the market and everything was 
sort of status quo. As soon as you had New York Air and a 
number of other players coming in and saying we want to provide 
new services to these airports, the Government went away from 
the antitrust immunity and the carriers meeting and trying to 
agree, and went to lottery mechanisms and other things for the 
allocation, so that history might be useful in guiding the 
Subcommittee.
    Senator Rockefeller. OK. Senator Wyden brought up the 
question of this meeting behind closed doors, and that is 
interesting. As soon as you say closed doors, people get very 
nervous. I would like, Susan McDermott, your interpretation of 
what happens when the U.S. Government is behind those closed 
doors with the airlines. How does that, or does that not, begin 
to answer Senator Wyden's concern?
    Ms. McDermott. Clearly, having an observer from the 
Government and having an understanding of what the rules are as 
to what carriers may or may not discuss can mitigate some of 
the concerns. It is quite clear that the intent of the 
proposals for antitrust immunity is to limit carriers to 
discuss only mitigation of congestion issues. There still 
remains important competitive issues that need to be addressed 
as one looks at both sides of the question. It is a question 
that we at the Department know is out there. There are 
proponents and there are detractors, and everyone understands 
it as a matter that we should look at.
    Carriers are capable of engaging in strategic behavior with 
regard to their own markets and their most important services, 
and whether a third party, a Government representative, would 
help to mitigate such behavior, I could not fully say.
    Senator Hutchison. Senator Rockefeller.
    Senator Rockefeller. Could I ask--no, I will not. I will 
wait for the next round.
    Senator Hutchison. Senator Wyden.
    Senator Wyden. Thank you, Madam Chairwoman, and I only want 
to make clear both to Senator Hutchison and Senator Rockefeller 
I support what you want to accomplish. I think your point with 
respect to large carriers and small airports is a good one. I 
just hope we can figure out a way, working with the Department 
and the industry and the two of you, that makes it so that 
there is a public record of some sort, because I support 
completely where you want to go.
    The question I have for you, Ms. McDermott, is, we found a 
Federal regulation. Let me just read it to you: ``It is the 
policy of the Board to consider unrealistic scheduling of 
flights by any air carrier providing scheduled passenger 
transportation to be an unfair deceptive practice and unfair 
method of competition within the meaning of the Act.'' It looks 
to us that you currently have the authority to consider 
unrealistic scheduling practices to be an unfair and deceptive 
practice. Has the Department ever used that authority, and if 
not, is this a resources problem, or perhaps you could tell us 
what the Department's record is on that.
    Ms. McDermott. Well, indeed that regulation is on the 
books, and has been for many years. To my knowledge it has been 
used very infrequently.
    The regulation is written in the sense that the Department 
has the authority to prevent unrealistic scheduling on the part 
of an air carrier. If we look at what is happening at some of 
our most congested airports, it appears that no single carrier 
really schedules flights that in total exceed the capacity of 
the airport.
    It is however, the collective schedule of all carriers that 
brings the capacity beyond the capability of the airport. We 
are looking at it once again to see whether it could have a 
current application, but one must keep in mind, again, that 
this is a collective concern, and not an individual airline 
concern.
    Senator Wyden. Well, I hope that you will look at using 
that particular regulation. What we have heard in our earlier 
kinds of hearings is that again and again the outside audits, 
the independent audits have shown that even when the weather 
was perfect, even when you had the maximum number of runways 
operating again in ideal situations, they could not possibly 
keep up with those schedules. I am troubled, frankly, about 
this question of the airlines overpromising. I support the 
effort to streamline these reviews. There is no question that 
we need more runways. Demand is unquestionably exceeding 
capacity. I think we ought to look at using existing authority 
where it is possible. If you go back and look at some of what 
Ken Mead has done and what the GAO has been talking about for 
this Subcommittee and others, I think it is on all fours with 
this question of unrealistic scheduling.
    We are anxious to work with you, and with the industry 
folks. As I indicated to Senator Rockefeller, I want to work 
this bill out. We did it on passenger rights. I think we can do 
it on this as well. I hope we can figure out a way to have 
these discussions in public, because I think to do it behind 
closed doors, even when there is that Department of 
Transportation representative, without a public record, is to 
invite trouble.
    I look forward to working with you, Madam Chairwoman and 
Senator Rockefeller and our colleagues.
    Senator Hutchison. Thank you, Senator Burns--I mean, 
Senator Wyden.
    Senator Burns.
    Senator Burns. Which one do you want?
    Senator Hutchison. I think I will go back to Senator Wyden.
    [Laughter.]

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I am happy to hear that finally other 
segments of the economy are finally being impacted by the NEPA 
process. You know, we come from Montana, and we have a lot of 
public lands. We have been fighting this process a long time. I 
congratulate the Chairwoman and the Ranking Member on this bill 
of trying to expedite the NEPA process and to get it going.
    Mr. Fegan, you know, maybe the same thing is happening in 
the airline industry as happened in energy. We see the curve 
going up of increased demand for travel from more people, and 
yet our ability to construct or to handle the infrastructure of 
those people continues to grow at a slight 1 to 2 percent, but 
our demand for travel is going up over 20 percent, and 
basically that is kind of the figures--those are not the true 
figures, but I use that as an example of our energy needs.
    Now, there will be those of us that maybe would lean toward 
maybe some reregulation, but how do you regulate when you do 
not have any supply. So, how long would it take you if you 
wanted to design a new runway, starting today, before you could 
probably have that runway into operation?
    Mr. Fegan. Senator, I think it probably varies from airport 
to airport. You know, I think on a very aggressive schedule, 
from the time you have identified the need, have gone through 
the process, have gotten the record of decision, design, 
construct, it is probably 8 years, 8 to 10 years, and there are 
many airports around the country that have spent 12, 14, 15 
years, and longer, but I think with an aggressive schedule, 
maybe 8 years.
    Senator Burns. In other words, we just cannot turn the 
switch and all at once we have got capacity, because I really 
feel, you know, slots are not the problem here. I think gates 
are a problem. We can sort of adjust our landings, and maybe 
extend the peaks and everything, but it is just the capacity of 
the airport to handle that many passengers.
    I still say, if you want to report on time, that reflects 
the true nature is gauge your on-time landings and arrivals, 
rather than on departures, and you will find out that we are 
running a little bit later than even the figures we have now, 
even though they give you the 20 minutes to back away from the 
gate. I think that gives a true measure of what we are going to 
do, and maybe from that, maybe from those figures, FAA and 
those people can come up with more of a realistic en route 
control, and also the control of the slots.
    So I do not have any other questions. I have a brief 
statement. I would like to put that in the record, but I know 
it is a very tender thing, these delays, especially with this 
Subcommittee, because we all fly, and just like I say, one of 
these days I am going to write a book.
    Thank you, Madam Chairwoman.
    [The prepared statement of Hon. Conrad Burns follows:]

               Prepared Statement of Hon. Conrad Burns, 
                       U.S. Senator from Montana

    Thank you, Mr. Chairman, I'll make my statement brief this morning. 
Although I commend my colleague for her legislation, I remain convinced 
we must be very deliberate in our actions on aviation issues.
    We have a responsibility to the nation to find solutions to 
problems in areas that don't always benefit from a ``one size fits 
all'' solution. Aviation issues are no different.
    Addressing the issue of peak hour pricing at all large airports may 
resolve the problems we have at specific airports like LaGuardia. But, 
an unintended consequence may be the exacerbation of problems at other 
airports including non-hubs and rural airports.
    I advocate solutions to specific problems. We should work with the 
FAA, the airports and the airlines to solve these problems on a case by 
case basis.
    Commuter aircraft and general aviation (GA) aircraft feed our 
national system. The direction of Congressional policy must reflect the 
needs of rural America as well as the challenges we are facing at our 
hub airports.
    Thank you Mr. Chairman.

    Senator Hutchison. Thank you, Senator Burns.
    Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Madam Chairwoman, thank you very much. I 
want to applaud the Senator from Montana for the radical 
notion, the extreme revolutionary notion that on time means 
arriving on time. It is revolutionary as far as I am concerned. 
Amen.
    [Laughter.]
    Senator Cleland. I want thank you all for coming.
    Ms. Susan McDermott, let me just say, it is my 
understanding that between 1991 and 1999 only five new runways 
were added to the Nation's 29 largest airports. Clearly we are 
pushing the envelope in terms of the capacity of our 
infrastructure We all understand that.
    I would say to you that it is critical that the airport in 
Atlanta, Hartsfield, which is the busiest and most delay-
impacted airport in the world, get a desperately needed fifth 
runway. It is fascinating to sit here and hear our dear friend, 
Mr. Fegan from DFW, talk about adding an eighth runway. We only 
have four runways, and we are the busiest airport in the world. 
DFW, Chicago-O'Hare, Denver International all have five or more 
runways. In 2005, with 100 million passengers expected, and 
four runways at Hartsfield, it is projected that each flight at 
Hartsfield will be delayed an average of 14 minutes.
    As we all know, when Atlanta gets a cold, the rest of the 
Nation gets the flu. Everybody has to go through Atlanta. With 
five runways, though, that flight delay is expected to be cut 
dramatically to about 5 minutes on the average. I think, if we 
can add this fifth runway, that we can benefit passengers not 
just in the Southeast, but around the country.
    AIR 21 dramatically increased funding for the FAA to spend 
on new runways. I hope we can count on your Department's help 
in expediting Hartsfield's critically needed fifth runway. 
Would you like to respond to that?
    Ms. McDermott. Thank you for bringing to our attention the 
important issues regarding Hartsfield. Indeed, you are quite 
right, the importance of Hartsfield to the network concept of 
air transportation today does make it very important to the 
free flow of the rest of the system to the entire country. We 
are sensitive to that.
    I understand that for the fifth runway, work at the FAA is 
well underway. A draft environmental impact statement was 
issued in December of 2000, and that should be finalized as 
comment is received by the parties affected. We take very 
seriously your request that this be looked at and moved at the 
Federal level as quickly as it can be.
    Senator Cleland. Thank you very much.
    Ms. McDermott. Thank you.
    Senator Cleland. Mr. Merlis, Mr. Ken Mead, the Inspector 
General, testified last September that one outcome of the hub 
and spoke system is the so-called banking of flights into 
sizable departure and arrival pushes. In other words, a ganging 
up of aircraft in the sky for a very limited amount of time on 
the ground, pushes at most of the major airports. Such pushes, 
he stated, put demands on the air traffic control center system 
to efficiently manage the flow of traffic, obviously.
    Currently, Delta is operating 10 banks a day at Hartsfield, 
during which time, an average 90 flights an hour land and 
depart from Atlanta, again, on just four runways. In an effort 
to address overscheduling, on April 1 of this year, Delta will 
voluntarily spread the flights over the course of the day to 12 
banks, each averaging 75 flights an hour.
    What kind of impact do you think such voluntary approaches 
can have on the system, and in the case where other carriers 
service the same airport, do you think this kind of voluntary 
action can still be effective?
    Mr. Merlis. Yes, I do. I think it is very important that 
carriers be mindful of the necessity to improve the reliability 
of their schedules, so the action taken by Delta, and similar 
action, or a parallel kind of action was taken by American in 
Chicago, in which instead of running planes through the entire 
circuit, it dedicated planes into and out of the Chicago hub, 
thereby increasing the reliability of on-time performance.
    I think various carriers are looking at alternative ways of 
improving their on-time reliability by doing things such as the 
de-peaking, spreading the amount of time in a connecting 
complex, and those will go a long way toward solving these 
kinds of near-term problems. The long-term problems still have 
to be solved through the combination of air traffic control and 
airport capacity expansion.
    Senator Cleland. Thank you very much.
    May I say, Madam Chairwoman, that the Senator from Montana 
was onto something, something that I have thought about for a 
while, and have addressed to Mr. Ken Mead when he has been 
before this Subcommittee, and that is, the definition of on-
time for me as just a consumer, on-time means you depart the 
airport on time and you arrive on time. It does not mean you 
just leave the gate and sit out on the tarmac for an hour.
    So maybe in this question of overscheduling, we can at 
least get a realistic definition of what on-time really means.
    Thank you, Madam Chairwoman.
    Senator Hutchison. Thank you. Senator Cleland, I think that 
is one of the key points. There are all of these schedules for 
flights that appear to be at the same time, when you know you 
have five runways and you have got 10 scheduled departures at 
8:15, you know it cannot happen.
    One of the things that our bill attempts to address is on-
time departure would mean a plane that takes off within 20 
minutes of the advertised time, rather than what we have now, 
which is allowing the plane to leave the gate so it is listed 
as ``on-time,'' but, as you said, it sits on the tarmac for an 
hour. So we are trying to take that into consideration. Then 
with the other bill that we marked up in this Subcommittee a 
couple of weeks ago, an airline would have to tell the customer 
when they call for the ticket that this is a chronically late 
flight--then you are beginning to empower the passenger. Thank 
you for bringing that up.
    Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. I thank the Chairwoman, and especially for 
the efforts on this whole issue. This reminds me a little of 
campaign finance reform, in that Senators know a lot about this 
simply because we have a lot of personal experience with this, 
and maybe that is a dangerous thing.
    But I want to toss a question out, kind of a general 
question out to the panel and that is, with some of the fixes 
that we have here, some of the talking about scheduling and 
trying to improve the schedules, is it even possible, as we see 
the projected growth in the airline industry and the demand for 
flights, the demand for passenger seats, without building new 
airports, or at least what looks like--we have one scheduled to 
be built. It might be the only major new airport being 
scheduled to be built--it is in Nevada--in the next 10 years. 
Without at least rapid, or at least fairly significant 
expansion of our capacity, is it possible to take care of this 
problem?
    Mr. Merlis. It is going to be difficult. There is no 
question that it will be difficult. Even with this legislation 
and environmental streamlining, I think we have to be cognizant 
of the fact that local opposition to airport projects that 
right now finds its expression in the environmental process is 
going to shift to some other fora, which is why in the oral 
statement I gave I said we have got to think boldly, and 
environmental streamlining is important. But we may have to go 
beyond that if we are really going to get the kind of growth in 
system capacity that is truly necessary.
    Senator Ensign. And this environmental streamlining that is 
in the Chairwoman's bill, is this something that you think--how 
much time is going to be taken off the process by this?
    Mr. Merlis. I think it would be better for one of the 
airport people who have gone through it much more intimately 
that I were to describe that.
    Senator Ensign. OK.
    Mr. Merlis. Well, it is always hard to tell exactly how 
much time. It really depends on the level of opposition, but I 
would expect that a really concerted effort by the FAA on these 
critical projects and the legislation that is being considered, 
you might see as much as 2 years be taken off of the 8-year 
process from beginning to end.
    Mr. Barclay. If I could add, I would like to see a debate 
about Congress putting on a specific deadline, put on a 3-year 
process, statute of limitations for debate on these, if it is a 
project that is identified as a key national interest for 
meeting the capacity needs of the system, and again, say in the 
same legislation, we are not changing any environmental 
standards.
    All the standards that are there get applied at the end of 
the process, but we need to have something specific that other 
people can come back and say, that number is not reasonable for 
some reason, but we need to get to a finite conclusion, because 
we need to add over the next decade the equivalent of 10 DFWs 
in order to handle the passengers that are coming.
    Now, we do not have to add 10 new airports, but we have to 
add that kind of capacity to the system, or we are going to be 
in gridlock.
    The good news is, as we have said in our statement, as 
Senator Rockefeller noted, the difference between gridlock and 
no gridlock is about 50 miles of runway nationwide. If we can 
add one 2-mile runway at each of the 25 congested airports, 
that pretty much winds up doing it for you from what we can see 
of the demand, so it is not such a huge problem that we cannot 
focus on it and get it done. But it does require us to put 
limits on these never-ending debates about folks wanting to 
game the procedures and never having to argue over the 
environmental standards.
    Senator Ensign. Just to follow up on that, we have out 
there obviously a lot of opposition. How do you propose us 
dealing with that, to make it something reasonable that we are 
not harming the environment, because this really is a lot of 
perception.
    If those flights are coming over your house, it is harming 
your environment. But if you are the person that is having to 
land at that airport, it is causing you a lot of delays, and 
frankly, you have to think about the airplane sitting on those 
tarmacs all that time. Does that not increase pollution as 
well? There are some competing factors here.
    Mr. Barclay. The issue is, can we get a yes or no? We have 
got about 14 runways from communities that have already decided 
at major airports they want to add the capacity, and so far we 
have not even been able to speed those up.
    One of the proposals that we have in our legislation is to 
give airports the same rights that we have given pharmaceutical 
companies. If they want to speed up a drug examination at FDA, 
they can pay added cost for added people at FDA to speed that 
process up. We are asking for that same kind of right for 
airports to do that, because the major airports would be happy 
to fund an environmental biologist at San Francisco, because 
they are looking at building a runway into the bay and getting 
that process moving.
    To your point, though, if we can put a no at some of these 
places, and we find communities that do not want to add, and it 
does not meet the standards, we do, because we run this network 
system where we connect the passengers, many of these markets 
we can move future connecting banks to other airports if we 
know that we cannot put any more into one of the major airports 
that is now connecting airport, so there is some fungibility in 
the system for the connecting passenger element.
    That will not solve the problem at LaGuardia, where you 
have O&D passengers, but we can move ahead if we can get 
decisions. Our problem has been this never-ending debate rather 
than getting a yes or no on the go, no-go decision.
    Senator Ensign. Thank you.
    Senator Hutchison. Thank you, Senator Ensign.
    Mr. Fegan, one of the great reasons for having a hearing is 
that sometimes you can learn things that add to the ability for 
us to address an issue, and your suggestion that the passenger 
facility charge be used for gates is one that I think has 
merit.
    I am going to go back and do the research to determine if 
there would be any problem of crowding out the capacity of that 
passenger facility charge by allowing this provision. If not, 
however, I will discuss it with Senator Rockefeller, the co-
sponsor of the bill, as I am inclined to see about adding that 
provision to make it more feasible for communities to add that 
gate space. It seems to me this is one of the issues we are 
trying to address, so I thank you for that.
    For the record, I want to follow up on one point in your 
testimony. You referenced a requirement for States, when they 
draft their regional air pollution reduction plans, to 
accommodate capacity-oriented proposals for critical hub 
airports. Could you explain how that would work, and what 
discretion the State could retain over the details of building 
a new airport, or new runways?
    Mr. Fegan. Thank you, Madam Chairwoman. In order for the 
States to abide by the Clean Air Act, they are required to 
implement a State implementation plan, and within that State 
implementation plan they allocate certain levels of pollutants 
to all the different sources that exist in the State.
    We have found that over the years, in a number of States 
around the country, that the State implementation plans simply 
did not allocate enough emissions to allow airports to go 
through the natural growth as well as to accommodate the 
construction impacts, and so the EASE program, one of the 
provisions, and one of the things that we certainly would 
support, would be to essentially ask the States to ensure that 
airport facilities are given adequate level of emissions 
budgets so that they can have their natural growth as well as 
accommodate construction.
    Again, that is completely up to the State at this point in 
time, and if the State chose not to add or allow for the budget 
to be adequate enough for the airport to continue to grow, you 
could not get a general conformity letter which would allow you 
to have approval for a runway or for a terminal. So again, the 
States are in a position where they could actually stop the 
growth of an airport simply by not allocating enough emission 
resources.
    Senator Hutchison. But you propose to address that State by 
State in your plan by going to the State and saying ``make this 
a priority.'' Is what you are really saying?
    Mr. Fegan. I think there may be some room or some 
opportunity for this legislation to actually require States to 
look at that, and to see if they can accommodate the emissions 
from airports, otherwise the airports simply will not be able 
to grow.
    Senator Hutchison. Thank you, we have not addressed that 
issue, although in the study that we are asking the Secretary 
to make each year, it could be a part. But perhaps we could 
look at addressing it even sooner.
    Mr. Swanda, I would like to ask you about one of the issues 
that you discussed, and that we have certainly addressed: the 
issue of smaller general aviation aircraft at the major hubs, 
which have tension, because that is a take-off and landing 
slot. I want to ask if you think we should really be focusing 
efforts for major hub areas to have regional airport plans that 
would look at the needs of the traveling public and the cargo 
possibilities or requirements? Should we try to plan the 
airports in the region to best accommodate the particular 
needs, whether it is general aviation, cargo, long haul 
service, or regional service?
    Do you think we should ask these major hub areas to come 
forward with regional plans that would make sure we address the 
issues you are concerned about, but also alleviate some of the 
clog of major long haul airports that we are finding?
    Mr. Swanda. Well, the short answer is yes, and in fact, 
many airports have such reliever airport systems within their 
purview. One of the problems sometimes is that the airports 
that are effectively relievers for that major airport could be 
in several different jurisdictions, and it may not be an 
adequately coordinated process.
    In some States like Texas, around DFW, they have a very 
excellent reliever airport system that has been coordinated by 
the State.
    I think another important piece of this, however, is the 
fact that it may be possible to improve facilities even at 
congested airports by ensuring they have parallel, independent 
operations for smaller aircraft. Some airports have shorter 
runways and some do not. Those that do offer access to the 
smaller aircraft, whether it be general aviation aircraft, or 
commuter aircraft, to operate into that airport and connect 
with the airlines that are providing service from that airport.
    So it is a multidimensional answer, but I think the short 
answer is yes, indeed, we do need to have a better regional 
coordination of the total airport capacity in those congested 
areas.
    Senator Hutchison. Thank you.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Madam Chairwoman. I am just 
struck that we are having conversation here on speeding up 
landings and take-offs and expanding capacity.
    I am thinking in my mind that the crisis we are discussing 
probably has more impact on the economy and on the flow of 
American life than almost anything else, other than larger 
national security subjects, and I really mean that. For 
example, when I look at general aviation, people think of 
general aviation and they just think, well, that is people with 
lots of money getting to places that they can afford to get to 
because they have general aviation.
    Well, if you come from a State like West Virginia, or rural 
parts of any State, general aviation is often the only way that 
a person can travel, are limited sources of transportaion in 
these rural areas. A decision about where the plant will be 
placed, or the investment will be made, or a plant will be 
closed down, or whatever, will be decided on the location of 
general aviation. Executives are not going to build where they 
cannot fly into. In some ways, what we are talking about has, I 
believe, has already surpassed the highway system in importance 
in this country.
    The highway system is in place, and I think the need for 
colleagues to understand the incredible importance of what we 
are discussing is critical. It is not just a matter of delay 
and inconvenience and passenger anger, although it is that, 
too, but it is literally the economic future of the country.
    So having said that, one of the issues at stake is the so-
called peak pricing. I know there are different views. What I 
would like to do is to get a sense from some of you about how 
you think the peak pricing would affect smaller, more rural 
airports such as the ones that I represent. In effect, we all 
represent in different rural areas of our respective States.
    Ms. McElroy. Senator, you have found an issue that is near 
and dear to our heart, because as I mentioned, there are 271 
airports in the United States that depend exclusively on 
regional airlines for their access to the transportation 
system. Those airports are served by aircraft from 19-seat to 
68-seat in the turbo prop range, and in general, 30 and 50-seat 
regional jets, and these aircraft would be disproportionately 
affected by the schemes that are under discussion, 
significantly raising the price of the tickets for passengers 
in those communities.
    Senator Rockefeller. Explain how that works, in your 
judgment.
    Ms. McElroy. It is my understanding, and again it is a bit 
like chasing smoke in that we do not have a formal proposal to 
discuss, but in theory, we have been told that a surcharge 
would be placed on each aircraft operation during a specified 
period, and that surcharge would then be added to the existing 
landing fee.
    Let us say it is $5,000, for lack of a better example. Let 
us say it is $5,000. The ability to recover that surcharge on a 
30-seat aircraft or a 50-seat jet is significantly different 
than recovering that on a 300-seat aircraft. As you know, as 
you increase prices, especially in some of the smaller 
communities where you have fewer people to absorb those 
increases, you see a decrease in traffic, it is a roller 
coaster if you will, that keeps going forward until you might 
see elimination or reduction of that service.
    We hope that the policymakers recognize the importance of 
access for these communities, not only for origin and 
destination, going to the cities to do their business and 
getting back that same day, which is cost-efficient for them, 
but also their ability to connect to the major carrier so they 
can continue on their journey.
    Our schedules are well-timed with the majors to allow that 
convenience for the passengers, and so we need to keep in mind, 
as Mr. Barclay said, the net system, and the impact on small 
communities.
    Senator Rockefeller. Any other comments on that?
    Mr. Swanda. Senator, I would just like to add that in the 
broader public policy perspective, by putting these sorts of 
bans, effectively a ban on smaller aircraft at the big 
airports, we force people onto the road system. I wonder, in a 
broader policy sense, is that really the safest alternative for 
us to do that, to create more problems on the highway system in 
order to relieve congestion at the airports?
    Our solution has been to increase the capacity at these 
airports to accommodate the demand, not to force people to go 
another travel mode.
    Senator Rockefeller. I thank you both for that. My final 
question has to do with new technologies, and I know we have 
Free Flight Phase 1, et cetera. Maybe I should direct this to 
you, Mrs. McDermott. What technologies are we putting in place, 
and what ones might be around the corner which could help, in 
and of themselves, this congestion problem we are discussing?
    Ms. McDermott. Thank you. The FAA is currently working very 
closely with the OST and other interested parties in looking at 
every possible mechanism that is useful for alleviating 
congestion both in the near term and the long term. When that 
review is finished, we will be able to give you a very 
broadbased list. There is no question that there could be 
increases in the types of technology, Free Flight, as you 
mentioned, that could put some incremental additional capacity 
into the system in the near term.
    I think we need to look at it in a multifaceted way, in 
terms of airport construction, which may be more long-term, and 
in terms of short-term management. As much as we may need new 
runways, and concrete is going to have to be poured, there is 
no question that the year 2001 is here now and the year 2005 is 
coming upon us quickly. We have to look at it in many different 
ways.
    The near-term is perhaps not as optimal, but there have 
been important technological advancements. Specifically, which 
ones may be better deployed for near-term uses is something 
that the Department will be able to report back to the 
Subcommittee when we finish the report.
    Senator Rockefeller. So you would agree that expansion of 
capacity is fundamental, the so-called 50 miles that is needed 
is fundamental, and the gateways are the fundamental problem, 
and new technologies are incremental in the way they can 
improve the situation, and have to be included in all of this?
    Ms. McDermott. Absolutely.
    Senator Rockefeller. And they are coming along?
    Ms. McDermott. Yes, they are, Senator.
    Senator Rockefeller. OK. Madam Chairwoman, I want to thank 
you for holding this hearing. Again, I think aviation is just 
an incredibly dominant subject in American life, and one which 
we do not pay enough attention to, but you do, and I am 
delighted that you are Chairwoman.
    Senator Hutchison. Thank you, Senator Rockefeller, and I 
appreciate the line of questioning.
    I just have two further questions.
    Mr. Merlis, I wanted to ask you this. It has been said by 
some of the airline representatives that their scheduling 
practices have not contributed to this problem. Do you really 
believe that?
    Mr. Merlis. I think to the extent that scheduling is a 
problem, it is a smaller part of the problem than are the other 
elements that have been discussed today.
    Scheduling peaks above nominal airport capacity, while not 
non-existent, are not the major cause. According to the FAA's 
own data, less than 10 percent of the delays are due to volume, 
volume being a surrogate for scheduling, so you can take a look 
at data.
    For example, Memphis, Miami, Pittsburgh, Salt Lake City, 
Charlotte, and Detroit, do not have any part of the day in 
which they are above capacity, yet delays per departure for 
those airports range from 5.08 minutes to 9.74 minutes. That 
means it is not scheduling, it is the air traffic control 
system, it is a variety of other factors, not the carriers' 
scheduling.
    So in other places I will agree that individual carrier 
decisions which do not exceed capacity, when collectively put 
together, may result in stresses in the system beyond that 
which it can handle in that particular time period.
    Senator Hutchison. I just want to make sure that we fix the 
capacity problems. I also think the airlines are going to have 
to step up to the plate and not overschedule; not put more 
take-off times than can be accommodated at an airport. I want 
to work together on this. But I do want to make sure that there 
is no denial that all of these things contribute to the 
problem. We are going to try to fix all of them for the ease of 
the traveling public, but it is important that we take the 
responsibility for all of the different areas that are not 
operating efficiently right now.
    My last question is for Ms. McDermott. I just want to ask 
you one other question, because I cannot get it out of my mind 
that DFW airport is trying to build a new runway. There has 
been a preapproval of the eighth runway, and yet we are 
looking, according to Mr. Fegan's testimony, at probably 
another 2\1/2\ years for the recertification of the runway that 
has already been certified.
    Is there something you can do without legislation that 
would expedite recertification. I do understand that there 
might be different circumstances in the last couple of years 
that would change the air pollution situation, but surely, with 
the basic information already gathered, you could expedite the 
environmental impact statements. Perhaps, it is the EPA that 
could expedite the statements. But is there anything you could 
add to this possibility?
    Ms. McDermott. Well, I will take this particular example 
and explore it with the FAA as to where they are in the 
procedure.
    In general, when an airport project is underway, it takes 
the FAA approximately 3 years to do the initial environmental 
impact statement. After that comes the local process that is 
required. The permits, the licenses, and any other authorities 
that are needed to actually begin to break ground are 
predominantly in the local jurisdiction.
    After that process, or concurrently, may come several of 
the challenges, the legal challenges to some of the findings. 
Where the Dallas/Fort Worth project is exactly in the Federal 
system of approvals for getting the runway underway, I will 
research for you and have someone contact the Subcommittee.
    Senator Hutchison. Thank you.
    Is there anything that anyone would like to add before we 
close the hearing? If not, I thank you very much. You have 
added to our base of knowledge. I hope we will have a markup on 
this bill very soon, so that we can add it to the first one we 
passed on communicating with the passengers. This is something 
that would really make a difference in our air traffic control 
system and our airport capacity.
    Thank you very much.
    [Whereupon, at 11:58 a.m., the hearing was adjourned.]

                            A P P E N D I X

               Prepared Statement of Hon. Jean Carnahan, 
                       U.S. Senator from Missouri

    Madam Chairwoman, thank you for convening this hearing on this 
critically important subject.
    I am extremely concerned about the current state of our aviation 
industry. In particular, the frequency of delayed flights and the 
corresponding rise in customer dissatisfaction are particularly 
troubling.
    I am pleased that this Subcommittee acted last week by sending the 
Airline Customer Service Improvement Act to the floor. This is an 
important step to begin addressing some of the factors that lead to 
customer dissatisfaction.
    A truly comprehensive approach to satisfying customers, however, 
must address the real problem--aviation delays.
    A number of different factors contribute to the problem of flight 
delays, and unfortunately, I foresee no easy solutions.
    One reason for the current delay problem is that there are simply 
more people flying than ever before. Today there are over 65 million 
flights a year carrying over 670 million total passengers. Furthermore, 
the FAA recently forecasted that there would be 1.2 billion passengers 
flying by 2012. We can only expect our delay problems to worsen as the 
skies become even more congested.
    We must act now to address these problems. Failure to do so will 
only contribute to the severity of the situation in the future. I 
applaud Senators Hutchison and Rockefeller for their leadership on this 
issue.
    I believe that they recognize, as I do, that a comprehensive 
approach will have to attack the problem on a number of fronts 
including scheduling, the Air Traffic Control system, and perhaps most 
importantly, infrastructure capacity. I look forward to working with 
them and the other Members of this Subcommittee to address these 
important concerns.

                               __________
             Prepared Statement of Hon. Olympia J. Snowe, 
                        U.S. Senator from Maine

    Thank you, Madam Chairwoman. I appreciate the opportunity to focus 
on this issue, because I am deeply concerned about the future of the 
U.S. aviation and air traffic system.
    Flight delays are literally out of control and consumer confidence 
is at an all time low. This is our wake-up call, and modernization is 
critical. After all, by some estimates, air traffic congestion is 
expected to grow by upwards of 50 percent through 2008, and over 100 
percent by 2015. I do not believe that we are currently prepared to 
handle growth of this magnitude.
    I know that the Chair of the Aviation Subcommittee is developing 
legislation to address delay-related issues, and I commend her for 
tackling this. I know the option of peak hour pricing had been 
considered, but I understand that the Chair has removed the reference 
to peak hour pricing from her legislation. Nonetheless, I am concerned 
about the issue because peak hour pricing has been in the past and is 
now being considered as a possible solution to the congestion problems 
at Logan International Airport in Boston. We must ensure that rural 
small and medium size communities are not jeopardized. A recent FAA/
Massachusetts Port Authority runway expansion environmental impact 
report included a possible proposal to charge airlines higher prices 
for flights departing or landing at Logan during peak traffic hours in 
order to ease delays.
    I am very concerned that this would force airlines to reduce 
flights or shift flights to off-peak times in order to avoid the peak 
scheduling fees. If this happens, the first casualty will be small 
communities, and this is unacceptable. Small and medium size 
communities in Maine rely heavily on service to Boston as a gateway to 
other destinations. In addition, many travelers destined for Portland, 
Bangor, or Presque Isle, Maine must connect through Boston to reach 
those communities. Reduced Maine-to-Boston service would not only make 
travel more inconvenient and expensive, it could also undermine the 
economy and economic development efforts throughout the State, which 
rely heavily on dependable, convenient, affordable air service.
    I believe that we need to carefully evaluate the impact of such 
proposals on small community air service, as well as the impact on 
feeder traffic into large city airports like Logan, which the airlines 
need in order to make a hub city successful. In Maine, thousands of 
passengers rely on the Boston gateway. At the Bangor International 
Airport in Bangor, Maine, for example, 97 percent of Bangor passengers 
connect through Boston. In Presque Isle, Augusta, Rockland, and Bar 
Harbor, Maine, 100 percent connect through Boston.
    The Boston Logan gateway is absolutely critical to Maine. A 1994 
report issued by the Maine Department of Transportation on the 
importance of commercial air service to the State concluded that 
restricting access to Boston could cost Maine tens of thousands jobs, 
millions in payroll, and billions in sales.
    I believe that we need to look at the big picture, and cutting off 
small communities is not the answer. Some of the problems in the air 
traffic system are caused by factors beyond our control, such as 
weather. Other factors, including antiquated technology, capacity and 
how we manage capacity, and bureaucratic management--or mismanagement--
can and must be addressed.
    To this end, the FAA has in recent decades developed modernization 
initiatives to improve its programs and upgrade its systems. However, 
these efforts have been plagued by chronic cost and schedule overruns, 
due at least in part to what many believe was an overly ambitious 
strategy.
    The FAA and industry certainly face enormous challenges as they 
attempt to keep pace with the rapid changes taking place in civil 
aviation, but we must do better than we have done. Between 1995 and 
1999, delays were up from 11 to 58 percent of flights, and in 1999 
alone, the length of the delays rose 18 percent. From 1995 to 1999, 
ground holds of 1 hour were up 130 percent, and delays of 2, 3, or 4 
hours were up even more. Cancellations were up 68 percent. And yet, the 
FAA and the airlines can't even agree on what is causing the delays, 
often pointing the finger at each other.
    We need to move beyond the finger-pointing, and beyond the simple 
``band aid'' approaches. We need to get together and get to the bottom 
of this. If these problems are not addressed soon, the air traffic 
system will not be able to keep pace with consumer demand, leading, I 
believe, to higher prices and greater consumer dissatisfaction--not to 
mention increased pressures on safety. We simply cannot afford to allow 
this to happen. Once again, I would like to express my appreciation to 
the Chair and my thanks to the witnesses for sharing their insights.
  

                                  <all>

</pre></body></html>
